<html>
<title> - PROTECTING THE PRIVACY OF SOCIAL SECURITY NUMBERS AND PREVENTING IDENTITY THEFT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   PROTECTING THE PRIVACY OF SOCIAL SECURITY NUMBERS AND PREVENTING 
                             IDENTITY THEFT
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                             APRIL 29, 2002

                          Lake Worth, Florida
                               __________

                           Serial No. 107-71
                               __________

         Printed for the use of the Committee on Ways and Means







                     U.S. GOVERNMENT PRINTING OFFICE
80-224                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                    E. CLAY SHAW, Florida, Chairman

SAM JOHNSON, Texas                   ROBERT T. MATSUI, California
MAC COLLINS, Georgia                 LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               BENJAMIN L. CARDIN, Maryland
KENNY C. HULSHOF, Missouri           EARL POMEROY, North Dakota
RON LEWIS, Kentucky                  XAVIER BECERRA, California
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.








                            C O N T E N T S

                               __________
                                                                   Page
Advisories announcing the hearing................................  2, 4

                               WITNESSES

U.S. General Accounting Office, Barbara D. Bovbjerg, Director, 
  Education, Workforce, and Income Security Issues, accompanied 
  by Kay Brown, Assistant Director...............................    29
Social Security Administration, Atlanta, Georgia, Roland Maye, 
  Special Agent-in-Charge, Atlanta Field Division, Office of 
  Inspector General..............................................    60

                                 ______

Florida Office of the Attorney General, Cece Dykas...............    14
Florida Office of the Attorney General, 17th Judicial Circuit:
    Lee Cohen....................................................    50
    Anthangtha Guialdo...........................................    51
Palm Beach County, Florida, Sheriff's Office:
    Hon. Ed Bieluch..............................................    55
    Paul Rispoli.................................................    56
Tropepe, Lisa, Shalloway, Foy, Rayman & Newell Inc., accompanied 
  by Tim Morell..................................................     7
United States Marshals Service, Anthony K. Ross..................    11

                       SUBMISSIONS FOR THE RECORD

Alpert, Maisy, Plantation, FL, letter............................    66
Palay, David, Las Vegas, NV, statement...........................    66






                    PROTECTING THE PRIVACY OF SOCIAL
                    SECURITY NUMBERS AND PREVENTING
                             IDENTITY THEFT

                              ----------                              


                         MONDAY, APRIL 29, 2002

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                               Lake Worth, Florida.
    The Subcommittee met, pursuant to notice, at 2:15 p.m., in 
Commission Chambers, Lake Worth City Hall, Lake Worth, Florida, 
Hon. E. Clay Shaw, Jr., (Chairman of the Subcommittee) 
presiding.
    [The advisory and revised advisory follow:]

ADVISORY

COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                Contact: (202) 225-9263
FOR IMMEDIATE RELEASE
April 22, 2002
No. SS-13 

               Shaw Announces Hearing on Social Security

               Protecting the Privacy of Social Security

                 Numbers and Preventing Identity Theft

    Congressman E. Clay Shaw, Jr. (R-FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a field hearing on protecting the 
privacy of Social Security numbers (SSNs) and preventing identity 
theft. The hearing will take place on Monday, April 29, 2002, in the 
Commission Chambers, Lake Worth City Hall, 7 North Dixie Highway, Lake 
Worth, Florida, beginning at 1:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The SSN was created in 1936 for the sole purpose of tracking 
workers' Social Security earnings records. Today, SSN use has expanded 
well beyond its original purpose. According to the Social Security 
Administration (SSA), the SSN is the single-most widely used record 
identifier in the public and private sectors. Federal law requires the 
use of SSNs for administration of income taxes, the Food Stamp, 
Medicaid, and other Federal programs. In the private sector, SSNs are 
commonly used for record-keeping and data exchange systems, and often 
businesses require individuals to disclose their SSN as a condition for 
doing business.
      
    Many believe widespread use of the SSN benefits the public by 
improving access to financial and credit services in a timely manner, 
reducing administrative costs, and improving record keeping so 
consumers can be contacted and identified accurately. Others argue the 
pervasive use of SSNs makes them a primary target for fraud and misuse. 
Most recently, the events of September 11 have shed new light on the 
severe consequences of failure to protect the integrity of SSNs, as the 
ensuing investigations have exposed the methods used by the terrorists 
who assumed false identities to carry out their activities.
      
    In addition to being a gateway to terrorist acts, identity theft 
causes misery and frustration in the daily lives of tens of thousands 
of Americans. Identity theft is the number one consumer complaint 
received by the Federal Trade Commission, amounting to 42 percent of 
complaints received in 2001. In a recent report, the U. S. General 
Accounting Office found that identity theft appears to be growing 
(Identity Theft--Prevalence and Cost Appear to Be Growing: GAO-02-363). 
Report findings include: (1) the SSA Office of Inspector General has 
reported a substantial increase in call-ins of identity theft-related 
allegations to its Fraud Hotline, where allegations involving SSN 
misuse (81 percent of which relate directly to identity theft) have 
increased more than fivefold (11,000 to 65,000) in the 4 years ending 
September 2001; (2) seven-year fraud alerts (warnings to credit 
grantors to conduct additional identity verification before granting 
credit) have increased substantially (36 percent and 53 percent 
respectively) in the last 3 years, according to two consumer reporting 
agencies; and, (3) in its 2000 annual report, the Postal Service 
indicated that investigations of identity theft crime increased by 67 
percent since the previous year.
      
    To increase the privacy of SSNs and better protect the American 
public from being victimized, Chairman Shaw, along with several Members 
of the Committee on Ways and Means, introduced bipartisan legislation, 
H.R. 2036, the ``Social Security Number Privacy and Identity Theft 
Prevention Act of 2001.'' This legislation prohibits the sale and 
display of SSNs by Federal, State, and local governments, prohibits the 
sale of SSNs by the private sector, deters businesses from denying 
services when someone refuses to provide the SSN, and increases fines 
and penalties for SSN misuse.
      
    In announcing the hearing, Chairman Shaw stated: ``Although never 
created to be a personal identifier, the use of SSNs is now pervasive 
throughout our automated society. As highlighted by the September 11 
attacks, these numbers are far too easily used by criminals or 
terrorists to steal identities and obtain false documents. The ravages 
of SSN misuse are experienced by each and every victim of identity 
theft and now by our Nation through their role in facilitating terror. 
We must act to take whatever steps we can to protect the privacy of 
each and every Americans' SSNs. It's the right thing to do and a 
necessary step in our Nation's response to terrorism.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on what victims experience when their 
identities are stolen, the challenges law enforcement faces as they 
pursue identity thieves, the use of SSNs by government agencies at the 
Federal, State, and local levels, practices used to safeguard privacy, 
and the impact of legislative proposals aimed at combating SSN misuse 
and protecting privacy.
      

DETAILS FOR SUBMISSIONS OF WRITTEN COMMENTS:

      
    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef6fbffecf7f0f9fdf2fbecf5edb0e9ffe7edfff0faf3fbfff0eddef3fff7f2b0f6f1ebedfbb0f9f1e8">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Monday, May 13, 2002. Those 
filing written statements who wish to have their statements distributed 
to the press and interested public at the hearing should deliver 200 
copies to the West Palm Beach District Office of Congressman E. Clay 
Shaw, Jr., 222 Lakeview Avenue, Suite 162, West Palm Beach, Florida 
33401, by the close of business, Friday, April 26, 2002.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcd4d9ddced5d2dbdfd0d9ced7cf92cbddc5cfddd2d8d1d9ddd2cffcd1ddd5d092d4d3c9cfd992dbd3ca">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in Word Perfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov/.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call (202) 225-1721 or (202) 226-3411 TTD/TTY in advance of the event 
(four business days notice is requested). Questions with regard to 
special accommodation needs in general (including availability of 
Committee materials in alternative formats) may be directed to the 
Committee as noted above.

                                <F-dash>


                      ***NOTICE--CHANGE IN TIME***

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                Contact: (202) 225-9263
FOR IMMEDIATE RELEASE
April 25, 2002
No. SS-13-Revised

                 Change in Time for Subcommittee Field

                  Hearing on Protecting the Privacy of

                      Social Security Numbers and

                       Preventing Identity Theft

    Congressman E. Clay Shaw, Jr. (R-FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee field hearing on Protecting the Privacy of Social 
Security Numbers and Preventing Identity Theft, scheduled for Monday, 
April 29, 2002, at 1:00 p.m., in the Commission Chambers, Lake Worth 
City Hall, 7 North Dixie Highway, Lake Worth, Florida, will now be held 
at 2:00 p.m.
    All other details for the hearing remain the same. (See 
Subcommittee Advisory No. SS-13, dated April 22, 2002.)

                                <F-dash>


    Chairman SHAW. We will call the hearing to order. This is 
about Social Security Numbers (SSNs), and although they were 
created solely for the purpose of tracking workers' Social 
Security earnings, our culture is hooked on Social Security 
Numbers. Even the most trivial transactions require us to hand 
over our nine-digit ID before services can be rendered.
    I phoned in just this weekend to renew my fishing license, 
and they wanted my Social Security Number, the State of 
Florida. I said, ``Is it required?'' They said, ``No, but it 
would be nice if you give it.'' And I said, ``I don't believe I 
will.'' So they took my driver's license number instead.
    Our Social Security Number's the key that unlocks the door 
to your identity for any unscrupulous individual who gains 
access to it. Once the door is unlocked, the criminal or 
terrorist has at his fingertips all essential elements needed 
to carry out whatever dastardly act they can conceive of. 
Worse, we know that some terrorists involved on the September 
11 attack illegally obtained Social Security Numbers and used 
them to steal identities and obtain false documents, thus 
enabling them to live within our borders and plan their heinous 
acts. government and private industry must be vigilant to 
protect our identities. Safeguards to protect Social Security 
Numbers and prevent identity theft must be put in place now.
    As a first step, I, along with several of my Committee on 
Ways and Means colleagues, including Mark Foley, introduced 
bipartisan legislation entitled, the Social Security Number 
Privacy and Identity Theft Prevention Act. The bill prohibits 
the sale and display of Social Security Numbers by Federal, 
State and local governments and restricts the sale and display 
of Social Security Numbers by the private sector and deters 
business from denying services when someone refuses to provide 
their number and increase fines and penalties for Social 
Security Number misuse.
    Today, we will shine a bright light on the need to quickly 
bring comprehensive legislation to the House floor to keep 
Social Security Numbers private and protect citizens from 
identity theft. The time for action is long overdue.
    Field hearings allow us the unique opportunity to get out 
of Washington and hear the real-life experience of our 
neighbors on the frontlines of these important issues. I 
sincerely want to thank the City of Lake Worth for allowing us 
to hold this hearing in the Commission Chambers.
    [The opening statement of Chairman Shaw follows:]

 Opening Statement of the Hon. E. Clay Shaw, Jr., a Representative in 
   Congress from the State of Florida, and Chairman, Subcommittee on 
                            Social Security

    Although created solely for the purpose of tracking workers' Social 
Security earnings, our culture is hooked on Social Security numbers. 
Even the most trivial transactions require us to hand over our 9-digit 
ID before services can be rendered.
    Your Social Security number is the key that unlocks the door to 
your identity for any unscrupulous individual who gains access to it. 
Once the door is unlocked, the criminal or terrorist has at their 
fingertips all the essential elements needed to carry out whatever 
dastardly act they can conceive.
    Worse, we know that some terrorists involved in the September 
11<SUP>th</SUP> attacks illegally obtained Social Security numbers and 
used them to steal identities and obtain false documents, thus enabling 
them to live within our borders and plan their heinous crimes.
    Government and private industry must be vigilant in protecting 
identities. Safeguards to protect Social Security numbers and prevent 
identity theft must be put in place now.
    As a first step, I, along with several of my Ways and Means 
colleagues introduced bipartisan legislation, the Social Security 
Number Privacy and Identity Theft Prevention Act. This bill prohibits 
the sale and display of Social Security numbers by Federal, State and 
local governments, restricts the sale and display of Social Security 
numbers by the private sector, deters businesses from denying services 
when someone refuses to provide their number, and increases fines and 
penalties for Social Security number misuse.
    Today we will shine a bright light on the need to quickly bring 
comprehensive legislation to the House floor to keep Social Security 
numbers private and protect citizens from identity theft. The time for 
action is long overdue.
    Field hearings allow us the unique opportunity to get out of 
Washington and hear the real life experiences of our neighbors on the 
front lines of this important issue. I sincerely thank the City of Lake 
Forth for allowing us to hold this hearing in the Commission Chambers.
    Today, we welcome a neighbor and a former neighbor, Ms. Tropepe and 
Mr. Ross, who will share their personal stories about the theft of 
their identities. In addition, Barbara Bovberg of the General 
Accounting office will discuss government use of Social Security 
numbers.
    We will also hear about the many challenges faced by the law 
enforcement community as they hunt down identity thieves. We welcome 
Cece Dykas of the Office of the Attorney General; Lee Cohen of the 
State Attorney's Office, the Sheriff of Palm Beach County, Sheriff Ed 
Bieluch; and Roland Maye of the Social Security Administration's Office 
of Inspector General.
    Welcome to all.

                                <F-dash>


    Chairman SHAW. Mark, I believe your political life started 
right here in this building.
    Mr. FOLEY. In this very seat.
    Chairman SHAW. Oh. Today we welcome a neighbor and former 
neighbor, Mrs. Tropepe and Mr. Ross, who will share their 
personal stories about the theft of their identities. In 
addition, Barbara Bovbjerg of the U.S. General Accounting 
Office will discuss government use of Social Security Numbers. 
We will also hear about the many challenges faced by law 
enforcement as they hunt down identity theft. We want to 
welcome representatives from the Office of the Attorney 
General, the State's Attorney's Office, we have the Sheriff of 
Palm Beach County, and we have also Mr. Maye of the Social 
Security Administration (SSA), Office of the Inspector General 
(OIG). I want to welcome all of you, and I will, at this time, 
yield to Mr. Foley for any comments that he might have.
    Mr. FOLEY. Thank you very much, Clay. And, first, let me 
thank everybody. It is a delight and honor to be back in this 
seat, in this city, in the first political office I ever held, 
and I think longingly of those days when life was easy and we 
didn't have the problems we have today.
    I am particularly pleased to see the number of panelists 
here. And, Lisa, specifically, thank you for joining us. You 
mentioned to me a few weeks ago the problems you had, and it 
was interesting because I had relayed a similar problem that I 
had where somebody took my Social Security Number and applied 
for credit. I got the first notice from Target Collection 
Agency that I had somehow charged $780 worth of goods and 
services. We got a copy of the application for credit. It 
showed my Social Security Number, said the person worked for 
the government. The only thing different was they used an 
address, Powerline Boulevard in Pompano Beach, Florida. So 
everything else they had on me. Target extended credit. That 
person walked away with $700-plus merchandise. I spent 
countless hours trying to reconcile this issue. It was 
horrific, and I felt if I had to go through so much trouble, 
imagine someone who may not have a phone that is able to reach 
during the day, who may not have the tenacity, who may be a 
single mother having to deal with kids and family all day long 
and then hustle up to try and see if they can get these 
collection agencies off their phones and off their backs. I 
felt violated. I couldn't believe it could occur, but as 
Congressman Shaw suggested, it is happening far too frequently.
    I want to thank my colleague, because he had the bill long 
before I came involved with this, but when I heard the subject 
matter of the bill, I told him of my own experience and 
enthusiastically wanted to jump on board to see whatever we 
could do to eliminate this kind of problem, because it is, it 
is a sad commentary, it is a tragedy when you have to go 
through it, and so I joined together with my colleague 
hopefully getting something done on this issue. And thank you, 
Clay, for coming to Lake Worth--your district, my old hometown.
    Chairman SHAW. Thank you, Mark. Our first panel--we will 
have two panels today. The first panel, Lisa Tropepe, who is 
the Partner at Shalloway, Foy, Rayman & Newell, Incorporated, 
West Palm Beach, Florida; accompanied by Tim Morell, attorney, 
West Palm Beach, Florida; Anthony Ross, who is a Federal Law 
Enforcement Officer, United States Marshals Service in 
Brunswick, Georgia; Cece Dykas, who is the Assistant Deputy 
Attorney General, Florida Office of the Attorney General, Palm 
Beach County; and Barbara Bovbjerg who is the Director of 
Education, Work force and Income Security Issues, the U.S. 
General Accounting Office from Washington. She often appears 
before us in Washington. And Kay Brown, Assistant Director of 
Education, Work force and Income Security Issues, the U.S. 
General Accounting Office, also in Washington.
    From each one of you we have, I believe for all, if not 
most of you, your written statements which will be made a part 
of the record. You may proceed as you see fit.
    Lisa?

STATEMENT OF LISA A. TROPEPE, PARTNER, SHALLOWAY, FOY, RAYMAN & 
  NEWELL, INC., WEST PALM BEACH, FLORIDA, ACCOMPANIED BY TIM 
                        MORELL, ATTORNEY

    Ms. TROPEPE. Thank you. For the record, I just wanted to 
let you know that Tim Morell is my attorney. My firm and I had 
to hire him when this was happening to me, and he is here on my 
behalf.
    Dear Committee Members, good afternoon. My name is Lisa A. 
Tropepe, and I have been a victim of identity theft. I am 
beginning my testimony with a copy of a May 7, 1999, letter to 
Judge Oftedahl articulating the seriousness of the crimes 
against me and the importance of penalizing the imposter for 
all the crimes committed. The letter is dated May 7, 1999. It 
is in reference to the State of Florida v. Terkesha L. Lane.
    ``Dear Judge Oftedahl, Assistant State Attorney Chris Jette 
called to let me know that Terkesha L. Lane is scheduled for 
arraignment today. The crime against me was that the defendant, 
while working as a temporary receptionist at my office stole 
personal information about me and assumed my identity. She 
cleaned out my personal bank account and opened several credit 
card accounts where she charged up to thousands of dollars of 
merchandise.
    Although I was initially advised by intake officer Brian 
Brennan, Esq., that the defendant would be charged with 
multiple counts of grand theft and counts relating to the 
fraudulent assumption of my identity, I am now advised that 
only one charge of theft has been made. My employers and I are 
concerned that the courts may not be well advised as to the 
personal seriousness and public danger this crime represents.
    With those thoughts in mind, I feel compelled to write this 
letter in the hope of informing you of the impact of the crime 
of identity theft that was perpetrated upon me and, indirectly 
upon my firm by Ms. Lane.
    This person stole approximately $20,000 from credit 
grantors and my personal bank account using my name. She 
applied and received a valid driver's license with her picture 
and my name, address, and so forth., on the license. She 
subsequently applied for credit cards, received temporary 
credit limits, and spent accordingly. She also entered my bank 
several times and withdrew $13,900 from my personal bank 
account. Now I am spending hundreds of frustrating hours 
dealing by phone and letters with collection companies, banks, 
credit reporting agencies, governmental agencies, (Division of 
Highway Safety and Motor Vehicles, Postal authorities, Social 
Security, etc.) and various other companies to convince them of 
the fraud, and to clean up the disaster affecting my credit and 
other aspects of my finances.
    The out-of-pocket costs are substantial. However, far more 
devastating is learning that someone has invaded every aspect 
of my life and taken my identity. My credit is ruined, my good 
reputation is stolen and tarnished, my career and livelihood 
has been impaired, and I am subjected to possible further 
invasion in the future.
    I will briefly outline several aspects of this nightmare.
    My office and I have spent over 100 hours calling, filling 
out documentation, writing letters return receipt requested to 
banks, credit reporting agencies, governmental agencies, 
companies, utilities, credit grantors, etc., to inform them of 
the fraud in an attempt to prove my own innocence. The burden 
is on the victim to prove fraud since there is great suspicion 
by the credit grantors. In fact, since I put fraud alerts and 
new passwords on all my accounts, I have experienced extensive 
questioning and delays in dealing with the various banks and 
agencies. I am told by the Privacy Rights Clearinghouse and the 
Federal Trade Commission that my problems may go on for several 
years.
    This has been a very frightening and invasive nightmare. I 
have had great difficulty sleeping and have woken in cold 
sweats worrying about what else I will find out. The 
impersonator was a temporary employee at my office. She was our 
temporary receptionist in charge of outgoing mail and phone 
messages. When I realized someone had taken my identity and was 
applying for credit cards in my name, I shared my problem with 
her. She subsequently hugged me and said everything will be 
okay. She never wavered in her demeanor. I truly believed that 
she was concerned. I was shocked to see her caught on tape 
withdrawing money from my bank account.
    I have had nightmares seeing the defendant invading my home 
and hurting me physically. She lives in Riviera Beach, and I 
live in Palm Beach Shores (Singer Island), which is only 5 
minutes away. She knows where I live.
    Stealing my identity has made me feel very vulnerable and 
violated. It has been stressful and literally made me ill. I do 
not like to think of myself as a victim. I am a professional 
engineer and am responsible for multi-million dollar projects, 
handling many complex problems related to the health, safety 
and welfare of the public. Because of this, I thought at first 
that I could handle this stress without any help. However, I 
found it so overwhelming that I had to hire an attorney and am 
in the process of scheduling a meeting with a therapist.
    I respectfully request that Your Honor consider the serious 
nature of these crimes.
    I believe this defendant and other wrongdoers who might see 
this as an easy crime to commit with potentially big money to 
steal and no real punishment to face, learn that society will 
not tolerate this type of insidious crime. For that reason, I 
strongly urge that she experience jail time, not just a couple 
of months on probation.
    I am concerned about of what she will do to me in the 
future. I trust you take this crime seriously. In that 
connection, I am also concerned that the charges being brought 
against this wrongdoer don't include charges for credit card 
theft and fraud under Florida Statute 817.
    Thank you for your consideration. Sincerely, Lisa A. 
Tropepe.''
    It has been almost exactly 3 years since I sent the above 
May 7, 1999, letter to Judge Oftedahl. In 3 years, the 
following has occurred. One, Turkesha L. Lane never served a 
day in prison. Turkesha L. Lane still has my Social Security 
Number, my home address and workplace. If she has not moved, 
Turkesha L. Lane still lives 5 minutes away from my home. Two, 
my credit record will never be the same. Perpetual fraud alerts 
and annual credit bureau inquiries have been, and will be, a 
part of my life for the rest of my life. Three, a reoccurrence 
is always in the back of my mind. After 3 years, I still 
shutter at the thought of someone impersonating me. My 
summation of this incident can only be described in two words: 
electronic rape.
    A part of me wants to thank you for giving me this 
opportunity to share my experience with all of you. However, a 
part of me is fearful that my testimony may call attention to 
other criminals regarding my vulnerability to be impersonated 
again. As lawmakers, I trust that you will provide the 
necessary laws needed to stop this awful crime.
    [The prepared statement of Ms. Tropepe follows:]
Statement of Lisa A. Tropepe, Partner, Shalloway, Foy, Rayman & Newell 
                     Inc., West Palm Beach, Florida
    Dear Committee Members:
    Good Afternoon, my name is Lisa A. Tropepe and I have been a victim 
of identity theft. I am beginning my testimony with a copy of a May 7, 
1999 letter to Judge Oftedahl articulating the seriousness of the 
crimes against me and the importance of penalizing the imposter for all 
the crimes committed.
                                 ______
                                 
                                                        May 7, 1999
The Honorable Richard L. Oftedahl,
Room 11.2213, Division X
Palm Beach County Courthouse,
205 N. Dixie Highway,
West Palm Beach, FL 33401
IN RE: State of Florida v. Terkesha L. Lane; PBSO #99-053521; Assigned 
        to Assistant State Attorney Chris Jette, Division X; Arrainment 
        date 5/7/99
Hand Delivered
    Dear Judge Oftedahl:
    Assistant State Attorney Chris Jette called to let me know that 
Terkesha L. Lane is scheduled for arraignment today. The crime against 
me was that the defendant while working as a temporary receptionist at 
my office stole personal information about me and assumed my identity. 
She cleaned out my personal bank account and opened several credit card 
accounts where she charged up thousands of dollars of merchandise.
    Although I was initially advised by intake officer Brian Brennan, 
Esq., that the defendant would be charged with multiple counts of grand 
theft and counts relating to the fraudulent assumption of my identity, 
I am now advised that only one charge of theft has been made. My 
employers and I are concerned that the courts may not be well advised 
as to the personal seriousness and public danger this crime represents.
    With those thoughts in mind, I feel compelled to write this letter 
in the hope of informing you of the impact of the crime of identity 
theft that was perpetrated upon me and, indirectly upon my firm, by Ms. 
Lane.
    This person stole approximately $20,000.00 from credit grantors and 
my personal bank account using my name. She applied and received a 
valid driver's license with her picture and my name, address, etc., on 
the license. She subsequently applied for credit cards, received 
temporary credit limits, and spent accordingly. She also entered my 
bank several times and withdrew $13,900.00 from my personal bank 
account. Now I am spending hundreds of frustrating hours dealing by 
phone and letters with collection companies, banks, credit reporting 
agencies, governmental agencies, (Division of Highway Safety and Motor 
Vehicles, Postal authorities, Social Security, etc.) and various other 
companies to convince them of the fraud, and to clean up the disaster 
affecting my credit and other aspects of my finances.
    The out-of-pocket costs are substantial. However, far more 
devastating is learning that someone has invaded every aspect of my 
life and taken my identity. My credit is ruined, my good reputation is 
stolen and tarnished, my career and livelihood has been impaired, and I 
am subjected to possible further invasion in the future.
    I will briefly outline several aspects of this nightmare:
    My office and I have spent over 100 hours calling, filling out 
documentation, writing letters return receipt requested to banks, 
credit reporting agencies, governmental agencies, companies, utilities, 
credit grantors, etc. to inform them of the fraud in an attempt to 
prove my own innocence. The burden is on the victim to prove fraud 
since there is great suspicion by the credit grantors. In fact, since I 
put fraud alerts and new passwords on all my accounts, I have 
experienced extensive questioning and delays in dealing with the 
various banks and agencies. I am told by the Privacy Rights 
Clearinghouse and the Federal Trade Commission that my problems may go 
on for several years. See articles attached--including an article from 
Wednesday's Sun Sentinel which reports a nearly identical case.
    This has been a very frightening and invasive nightmare. I have had 
great difficulty sleeping and have awoken in cold sweats worrying about 
what else I will find out. The impersonator was a temporary employee at 
my office. She was our temporary receptionist in charge of outgoing 
mail and phone messages. When I realized someone had taken my identity 
and was applying for credit cards in my name, I shared my problem with 
her. She subsequently hugged me and said everything will be okay. She 
never waivered in her demeanor. I truly believed that she was 
concerned. I was shocked to see her caught on tape withdrawing money 
from my account.
    I have had nightmares seeing the defendant invading my home and 
hurting me physically. She lives in Riviera Beach and I live in Palm 
Beach Shores (Singer Island), which is only five minutes away. She 
knows where I live.
    Stealing my identity has made me feel very vulnerable and violated. 
It has been stressful and literally made me ill. I do not like to think 
of myself as a victim. I am a professional engineer and am responsible 
for multi-million dollar projects, handling many complex problems 
related to the health, safety and welfare of the public. Because of 
this, I thought at first that I could handle this stress without any 
help. However, I found it so overwhelming that I had to hire an 
attorney and am in the process of scheduling a meeting with a 
therapist.
    I respectfully request that Your Honor consider the serious nature 
of these crimes.
    I believe this defendant and other wrongdoers who might see this as 
an easy crime to commit with potentially big money to steal and no real 
punishment to face, learn that society will not tolerate this type of 
insidious crime. For that reason, I strongly urge that she experience 
jail time, not just a couple months on probation.
    I am concerned about of what she will do to me in the future. I 
trust you take this crime seriously. In that connection, I am also 
concerned that the charges being brought against this wrongdoer don't 
include charges for credit card theft and fraud under Florida Statute 
817.
    Thank you for your consideration.
    Sincerely,
                                                    Lisa A. Tropepe
                                 ______
                                 
    It has been almost exactly three years since I sent the above May 
7, 1999 letter to Judge Oftedahl. In the three years the following has 
occurred:

    1. Terkesha L. Lane never served a day in prison. Terkesha L. Lane 
still has my social security number, my home address and workplace. If 
she has not moved, Terkesha L. Lane still lives five minutes away from 
my home.
    2. My credit record will never be the same. Perpetual fraud alerts 
and annual Credit Bureau inquiries have been and will be a part of my 
life for the rest of my life.
    3. A reoccurrence is always in the back of my mind. After 3 years I 
still shutter at the thought of someone impersonating me. My summation 
of this incident can only be described in two words--``Electronic 
Rape''.

    A part of me wants to thank you for giving me this opportunity to 
share my experience with all of you. However, a part of me is fearful 
that my testimonial may call attention to other criminals regarding my 
vulnerability to be impersonated again. As lawmakers, I trust that you 
will provide the necessary laws needed to stop this awful crime.

                                <F-dash>


    Chairman SHAW. Thank you for that testimony. I think we are 
all vulnerable. Mr. Ross?

STATEMENT OF ANTHONY K. ROSS, FEDERAL LAW ENFORCEMENT OFFICER, 
       UNITED STATES MARSHALS SERVICE, BRUNSWICK, GEORGIA

    Mr. ROSS. Thank you. Good afternoon. My name is Anthony 
Ross, and I would like to thank the Honorable Clay Shaw, Social 
Security Subcommittee and the Social Security Administration 
Office of Inspector General for inviting me to testify to you 
today.
    The illegal use of another's identity is a serious problem 
costing the American taxpayers and businesses billions of 
dollars. Additionally, it destroys the credit of a very large 
number of citizens daily. I am one of those citizens and also a 
Federal Law Enforcement Officer, the United States Marshals 
Service.
    In April 2000, I became aware that I was a victim of 
identity theft when contacted by my banking institution. In a 
few days time, a person had assumed a false Florida driver's 
license with my name and information, cashed five checks for 
$995 each. I went through a few weeks of closing accounts and 
then finding that my accounts were now frozen and the moneys 
transferred back to the original accounts. This occurred 
several times during approximately a 2-week period. Eventually, 
it was resolved when out of frustration I closed all the 
accounts and began banking with another institution.
    Shortly thereafter, I was going to purchase a home 
subsequent to relocating from Florida to Georgia. The mortgage 
institution ran a credit check and inquired I had opened more 
than 25 revolving credit accounts in approximately a month's 
time. SunTrust was very professional, and they were quick in 
determining that I was not the cause of these accounts, and the 
purchase of my home went through without difficulty.
    However, from that point on it has been a nightmare and 
that is because my identity was illegally used to obtain in 
excess of $50,000 worth of credit charges. I have contacted 
credit bureaus and established flags for being a victim of 
identity theft. I have contacted numerous credit card 
companies, spending extended lengths of time just trying to get 
through the computerized phone systems, and then to a living 
person and then transferred again to reach a person in the 
Fraud Investigations Department. I have struggled with trying 
to read or more likely decipher credit reports; they are not 
user-friendly.
    I have contacted numerous creditors and filled out endless 
forms, filed affidavits, provided copies of driver's license, 
Social Security card to try to prove my innocence. That is 
right, the victim has to prove he is innocent. In many cases, I 
have received letters indicating that I have been cleared and 
credit bureaus that have been notified. However, and this is 
after looking up my most recent credit reports, the credit 
bureaus have not properly disclosed that information on my 
credit report.
    In June 2000, I received a Notice of Court appearance to 
answer for charges regarding failure to redeliver a hired 
vehicle. Again, my identity information was misused, and now I 
face the possibility of being arrested. At the least, I was 
now, as a Law Enforcement Officer, on the wrong end of the 
judicial system. Again, I had to prove my innocence by 
providing photographs and fingerprint cards. Metro-Dade Police 
Identity Unit was very professional and prompt in assisting me 
with clearing up this situation, as well as the State 
Attorney's Office.
    During this ordeal, I attempted to get assistance through 
several law enforcement agencies. I would call and get 
transferred, received voice mail, and then when I did speak to 
a detective I was generally given very little positive 
indication that anything would be done other than establish a 
crime report. Some law enforcement indicated they were very 
overwhelmed with identity theft activity, and I was part of a 
long list.
    Due to the abundance of identity theft and limited law 
enforcement resources, proper attention to my case was 
initially very poor. And that was until I contacted Special 
Agent Ray Llorca of the Social Security Administration. Special 
Agent Llorca promptly scheduled a meeting with me and obtained 
information and statements from me, and he was permitted to 
open an investigation. As a result, I testified in a State 
grand jury in July 2001. I was informed that six people were 
indicted in this scheme regarding identity theft and credit 
card/banking fraud.
    As recently as March 2002, a collection agency provided me 
an offer to settle an account with a balance of over $4,000, 
and this was for a substantially reduced amount. They were 
actually going to let me make two payments for about, oh, 
$1,200 and change each. What a deal, okay? This was in regards 
to an account that was illegally opened using my identity. A 
recent credit report indicates that I have 38 serious 
delinquency in public record or collections filed, none of 
which are truly my responsibility, but I must deal with them 
until they are cleared.
    The point I am trying to make is that even after crime, the 
investigation and to some extent the judicial proceedings, we, 
as victims of identity theft, are still trying to clear our 
names and restore our credit. Thank you.
    [The prepared statement of Mr. Ross follows:]
  Statement of Anthony Ross, Federal Law Enforcement Officer, United 
              States Marshals Service, Brunswick, Georgia
    Good Afternoon, my name is Anthony Ross.
    I would like to thank the Honorable Clay Shaw, Social Security 
Subcommittee and the Social Security Administration Office of Inspector 
General for inviting me to testify to you today.
    The illegal use of another's identity is a serious problem costing 
American taxpayers and businesses billions of dollars. Additionally, it 
destroys the credit of very large number of citizens daily. I am one of 
those citizens and also a Federal Law Enforcement Officer with the 
United States Marshals Service.
    In April of 2000 I became aware that I was a victim of identity 
theft when contacted by my banking institution. In a few days time a 
person assumed a false Florida Drivers License and cashed five checks 
for $995.00 each. I went through a few weeks of closing accounts and 
then finding that my accounts were frozen and monies transferred back 
to the original accounts. This occurred several times in that time 
period. Eventually it was resolved when out of frustration, I closed 
all accounts and began business with another banking institution.
    Shortly thereafter, I was going to purchase a home subsequent to 
relocating from Florida to Georgia. The mortgage institution ran a 
credit check and inquired if I had opened more than 25 revolving credit 
accounts in approximately a month's time. Sun Trust was very 
professional and quick in determining that I was not the cause of these 
credit problems. The purchase of the home went through without 
difficulty.
    However, from that point on it has been a nightmare. That's because 
my identity was illegally used to obtain in excess of $50,000.00 worth 
of credit charges. I have contacted credit bureaus and established 
flags for being a victim of identity theft. I have contacted numerous 
credit card companies spending extended lengths of time just trying to 
get through the computerized phone systems and then to a living person 
and then transferred again to reach a person in a fraud investigations 
department. I have struggled with trying to read or more likely 
decipher credit reports. They are not consumer friendly. I have 
contacted numerous creditors and have filled out endless forms, filed 
affidavits, provided copies of Drivers License and Social Security card 
to try to prove my innocence. That's right, the victim has to prove he 
is innocent. In many cases, I received letters indicating that I have 
been cleared and credit bureaus notified. However, In some cases that 
has not been properly disclosed on my credit report.
    In June of 2000 I received a Notice of Court appearance to answer 
for charges regarding Failure to Redeliver a Hired Vehicle. Again, my 
identity information was misused and now I faced the possibility of 
being arrested. At the least, I was now seen as a law enforcement 
officer on the wrong end of the judicial system. Again, I had to prove 
my innocence by providing photos and fingerprint cards. Metro-Dade 
Police Identity Unit was very professional and prompt in assisting with 
clearing up this situation as well as the State Attorney's Office.
    During this ordeal, I attempted to get assistance through several 
law enforcement agencies. I would call and get transferred and receive 
voice mail. When I did speak to a Detective, I was given very little 
positive indication that anything would be done other than establishing 
a crime report. Some law enforcement indicated they were overwhelmed 
with identity theft activity and I was part of a long list. Due to the 
abundance of identity theft, and limited law enforcement resources, 
proper attention to my case was initially very poor. That was until I 
contacted Special Agent Ray Llorca of the Social Security 
Administration, Office of Inspector General. S/A Llorca promptly 
scheduled a meeting with me and obtained information and statements and 
was permitted to open an investigation. As a result, I testified in a 
State Grand Jury in July 2001 and I was informed that six people were 
indicted in this scheme regarding identity theft and credit card/
banking fraud.
    As recently as March 2002, a collection agency provided me an offer 
to settle an account with a balance of over $4000.00 for a 
substantially reduced amount. What a deal! This was in regards to an 
account that was illegally opened using my identity. A recent credit 
report indicates that I have 38 serious delinquency and public record 
or collections filed. None of which are truly my responsibilities, but 
I must deal with them until they are cleared.
    The point I am trying to make is that even after crime, the 
investigation, and to some extent, the judicial proceedings, we as 
victims of identity theft are still trying to clear our names and 
restore our credit.
    Thank you.

                                <F-dash>


    Chairman SHAW. Mr. Dykas?

  STATEMENT OF CECE DYKAS, ASSISTANT DEPUTY ATTORNEY GENERAL, 
   FLORIDA OFFICE OF THE ATTORNEY GENERAL, PALM BEACH COUNTY 
                OFFICE, FT. LAUDERDALE, FLORIDA

    Mr. DYKAS. Good afternoon, Chairman, Congressman Foley. My 
name is Cece Dykas. I am the Assistant Deputy Attorney General 
for south Florida. Unfortunately, Florida finds itself on the 
forefront of identity theft issues, but hopefully we will also 
be on the forefront, along with the Federal Government, in 
trying to help stop these. In 1999, the Governor requested a 
Privacy and Technology Task Force. As a result of that task 
force and the testimony that was generated from that, a State 
grand jury was empanelled to deal with the variety of issues, 
including identity theft, along with the theft of driver's 
licenses.
    The grand jury that was empanelled recently released their 
report in January 10, 2002. To date, there have been at least 
56 defendants who have been charged with over 470 counts. There 
is a projected loss for the year 2005 that there will be a 
theft of $8 billion. They estimate that the average loss per 
person in an identity theft scheme is $17,000, as the other 
panelists, just through their own experience, have indicated. 
The average length of time between a theft occurring and a 
victim finding out that their identity has been stolen is 
generally 12.7 months. The average victim spends up to at least 
3 months and over $800 of their money to try and clear their 
name.
    Your Social Security, as the Chairman indicated when he was 
getting his fishing license, is on virtually everything. It is 
doctors' offices, video rentals, school applications. As a 
result of that, the Florida legislature, in the past several 
years, have passed Statutory section 817.568, Subsection 8. It 
allows for the prosecution of identity theft based on the 
residency of the victim. In many ways, part of the problem in 
prosecuting identity theft was to be able to determine where 
the crime had occurred. That statute now allows for the place 
of resident of the victim to determine jurisdiction.
    One of the recommendations or several of the 
recommendations of the task force were that they be established 
a nationally recognized identity theft prosecution unit within 
the Office of statewide Prosecution, that there be a devotion 
of resources for the training of Florida prosecutors and law 
enforcement officers on issues related to the investigation and 
prosecution of identity theft, that the legislation 
appropriation of funds to study and report on design methods 
and procedures to make the Florida drivers' licenses and 
identification card more resistant to tampering and 
counterfeiting. There is also a request for a formation for a 
multi-disciplined focus group to study security features of the 
Florida driver's license and identification card to make it one 
of the most secure driver's licenses and ID cards in the 
country.
    This past session, or should I say current session, that is 
going on in Tallahassee, has several bills before it dealing 
specifically with the issue of identity theft. Senate bill 140 
criminalizes the use of any public record to commit a further 
crime. House bill 1673 makes Social Security Numbers in the 
hands of State agencies exempt from disclosure under chapter 
119. House bill 1675 exempts bank account numbers or credit 
card charge or debit account numbers in the hands of State 
agencies from disclosure under chapter 119.
    House bill 1679 sets up a study commission on how the State 
treats personal ID information in public hands, whether 
excessive or unnecessary information is collected. The impact 
of advanced technologies on full access to public records, 
whether to treat the public access to physical documents 
differently than public access to electronic documents and 
other issues that underline the balance between the two. Senate 
bill 1020, and the bill makes a non-criminal violation for 
merchants who accept payment by electronic payment cards to 
leave more than the last five digits of the customer's account 
number showing on any receipt.
    And, finally, Senate bill 520, which provides an 
infrastructure and raises the standards for issuance of 
driver's license. It provides that a breeder document, those 
used to prove the identify of the applicant, be preserved by 
the Department, makes reciprocity and accepting out-of-State 
driver's licenses contingent on the other State having adopted 
standards as stringent as Florida's and provides that any 
driver's licenses used to a foreign national will not be valid 
for longer than a 2-year period of time.
    Presently, those bills are before the legislature and have 
bipartisan support, so hopefully those will be passed this 
session. Thank you very much.
    [The prepared statement of Mr. Dykas follows:]

  Statement of Cece Dykas, Assistant Deputy Attorney General, Florida 
     Office of the Attorney General, Palm Beach County Office, Ft. 
                          Lauderdale, Florida
[GRAPHIC] [TIFF OMITTED] T0224A.001


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224B.002


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224C.003


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224D.004


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224E.005


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224F.006


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224G.007


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224H.008


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224I.009


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224J.010


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224K.011


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224L.012


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224M.013


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224N.014


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224O.015


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224P.016


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224Q.017


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224R.018


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224S.019


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224T.020


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224U.021


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224V.022


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224W.023


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224X.024


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224Y.025


                                ------                                

[GRAPHIC] [TIFF OMITTED] T0224Z.026


                                <F-dash>


    Chairman SHAW. Thank you. Ms. Bovbjerg?

    STATEMENT OF BARBARA D. BOVBJERG, DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING 
      OFFICE, ACCOMPANIED BY KAY BROWN, ASSISTANT DIRECTOR

    Ms. BOVBJERG. Thank you. Mr. Chairman, Mr. Foley, thank you 
very much for inviting me once again before the Subcommittee, 
and I am especially appreciative that you have chosen to meet 
in the beautiful Sunshine State. It is very nice to get away 
from Washington.
    You have heard people talking about identity theft and the 
role of the Social Security Number in particular. And you have 
invited me today to discuss specifically government uses and 
protections of Social Security Numbers and the results of our 
ongoing work. I would like to focus first on uses and 
protections in the course of providing government benefits and 
services and then, second, on uses and protections in public 
records.
    My testimony is based on surveys and site visits we 
conducted at Federal, State, and county government agencies in 
the past year. We are conducting this work at your request, Mr. 
Chairman, and we plan to issue our report next month.
    Let me speak first about government uses in benefit and 
service provision. Federal, State and county agencies rely 
extensively on the Social Security Number, because SSNs provide 
a quick and efficient means of managing records and maintaining 
program integrity. The numbers are particularly useful when 
agencies share information with others to verify benefit 
eligibility or to collect outstanding debt. Most of this data 
sharing occurs between government agencies, but a significant 
percentage of agencies we surveyed told us they also share with 
other entities, such as contractors, credit bureaus, and 
insurance companies. governments also use SSNs in their role as 
employers for wage reporting and benefit administration.
    Although government agencies told us of various steps they 
take to safeguard the SSNs they use for these purposes, we 
found that certain key protections are not uniformly in place 
at any level of government. For example, when requesting SSNs, 
government agencies told us that they are not consistently 
providing individuals with key information mandated by Federal 
law. The Privacy Act requires that any Federal, State or local 
government agencies tell individuals who are asked to provide 
their SSNs whether the compliance is voluntary or mandatory and 
how the SSN will be used. This notification helps an individual 
make an informed decision and represents the first line of 
defense against improper use.
    We also found that many government agencies occasionally 
display SSNs on documents that may be viewed by others who 
don't need this information. These documents include things 
like payroll and benefit checks, child care vouchers and 
official letters to program participants. In addition, some 
governments display employees' SSNs on employee badges and 
identification cards.
    Responses to our surveys also showed potential weaknesses 
in information security. We asked agencies about eight 
practices commonly used in information security programs. 
Although many government agencies reported adopting some of the 
practices, none of the eight practices were uniformly adopted 
at any level of government.
    Let me turn now to the topic of SSNs in public records. 
When I say public records, I mean records or documents 
routinely made available to the public for inspection, such as 
marriage licenses or property transactions. Some Federal 
agencies and many of the State and county agencies we surveyed, 
including courts at all three levels of government, told us 
they maintain public records that contain SSNs. Officials who 
maintain these records told us it is their responsibility to 
preserve the integrity of the record and to make it publicly 
available rather than to protect the privacy of the individual 
SSN holder. Nonetheless, we found examples of government 
entities trying innovative approaches to protect the SSNs in 
such records, including developing new forms that shield SSNs 
from public view by maintaining them separately or on the back 
of the rest of the record. These changes are most effective 
when the government agency prepares the documents itself, but 
they don't protect information on documents prepared and 
submitted by someone else nor do they limit the availability of 
SSNs on records filed prior to the change in form.
    As a practical matter, as long as access to public records 
remains an in-person process, access will be somewhat limited. 
Where those wishing to view public records must visit a 
physical location and request information on a case-by-case 
basis, there is a measure of protection against widespread 
collection of personal information, like the SSN. However, 
several officials told us that thanks to the growth of 
electronic recordkeeping, they were considering making such 
records available on their Web sites. Such actions would create 
new opportunities for gathering SSNs from public records on a 
broad scale.
    In conclusion, governments use SSNs for many beneficial 
purposes but they do not always ensure that this personal 
information is protected. Although it is unclear whether these 
gaps in protection lead directly to identity theft, they 
represent a potential for SSN misuse. It will be important for 
governments at all levels to consider how best to protect SSNs 
and to take appropriate actions to improve the security of this 
information. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Bovbjerg follows:]
 Statement of Barara D. Bovbjerg, Director, Education, Workforce, and 
         Income Security Issues, U.S. General Accounting Office
Chairman Shaw and members of the Subcommittee:
    Thank you for inviting me here today to discuss government use of 
Social Security Numbers (SSNs). Although the SSN was originally created 
in 1936 as a means to track workers' earnings and eligibility for 
Social Security benefits, today the number is used for myriad non-
Social Security purposes in both the private and public sectors. 
Consequently, the public is concerned with how their personal SSNs are 
being used and protected. Further, the growth in electronic record 
keeping and the explosion of the availability of information over the 
Internet, combined with the rise in reports of identity theft, have 
heightened this concern.
    We have previously reported that SSNs play an important role in 
public and private sectors' ability to deliver services or conduct 
business.<SUP>1</SUP> Today, I will focus on how federal, state, and 
local governments use SSNs. Specifically, I will discuss (1) the extent 
and nature of government agencies' use of SSNs as they administer 
programs to provide benefits and services and the actions government 
agencies take to safeguard these SSNs from improper disclosure and (2) 
the extent and nature of governments' use of SSNs when they are 
contained in public records and the options available to better 
safeguard SSNs that are traditionally found in these public 
records.<SUP>2</SUP> My testimony is based on our ongoing work 
conducted at your request and that of the Subcommittee on Technology, 
Terrorism and Government Information, Senate Committee on the 
Judiciary. To address these issues, we mailed surveys to programs in 18 
federal agencies and those departments that typically use SSNs in all 
50 states, the District of Columbia, and the 90 most populous 
counties.<SUP>3</SUP> We also conducted site visits and in-depth 
interviews at six selected federal programs, three states, and three 
counties. We met with officials responsible for programs, agencies, or 
departments (hereinafter referred to generically as agencies) and 
courts that make frequent use of SSNs. We conducted our work between 
February 2001 and March 2002 in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Social Security: Government and 
Commercial Use of the Social Security Number is Widespread, GAO/HEHS-
99-28 (Washington, D.C.: Feb. 16, 1999).
    \2\ We found no commonly accepted definition of public records. For 
the purposes of this statement, when we use the term public record, we 
are referring to a record or document that is routinely made available 
to the public for inspection either by a federal, state, or local 
government agency or a court, such as those readily available at a 
public reading room, clerk's office, or on the Internet.
    \3\ We did not survey state Departments of Motor Vehicles or state 
agencies that administer state tax programs, because we have reported 
on these activities separately. See U.S. General Accounting Office, 
Child Support Enforcement: Most States Collect Drivers' SSNs and Use 
Them to Enforce Child Support, GAO-02-239 (Washington, D.C.: Feb. 15, 
2002) and Taxpayer Confidentiality: Federal, State, and Local Agencies 
Receiving Taxpayer Information, GAO-GGD-99-164 (Washington, D.C.: Aug. 
30, 1999).
---------------------------------------------------------------------------
    In summary, in delivering services and benefits to the public, 
federal, state, and county government agencies use SSNs to manage 
records, verify the eligibility of benefit applicants, collect 
outstanding debts and conduct research and program evaluation. Using 
SSNs for these purposes can save the government and taxpayers hundreds 
of millions of dollars each year. As they make use of SSNs for these 
purposes, government agencies are taking some steps to safeguard the 
numbers. However, agencies are not consistently following federal laws 
regarding the collection of personal information, implementing 
safeguards to protect SSNs from improper disclosure, or limiting the 
display of SSN on documents not intended for the public. Moreover, 
courts at all three levels of government and certain offices at the 
state and county level maintain records that contain SSNs for the 
purpose of making them available to the public. Recognizing that these 
SSNs may be misused by others, some government entities have taken 
steps to protect the SSNs from public display. For example, some have 
modified forms so that they can collect SSNs but keep them in a file 
separate from the public portion of the record. Nonetheless, although 
public records have traditionally been housed in government offices and 
court buildings, to improve customer service some government entities 
are considering placing more public records on the Internet. The ease 
of access the Internet affords could encourage individuals to engage in 
information gathering from public records on a broader scale than 
possible previously. In conclusion, we will be reporting in more detail 
on these issues at the end of this month and look forward to exploring 
additional options to better protect SSNs with you as we complete our 
work.
Background
    The use of SSNs by government and the private sector has grown over 
time, in part because of federal requirements. In addition, the growth 
in computerized records has further increased reliance on SSNs. This 
growth in use and availability of the SSN is important because SSNs are 
often one of the ``identifiers'' of choice among identity thieves. 
Although no single federal law regulates the use and disclosure of SSNs 
by governments, when federal government agencies use them, several 
federal laws limit the use and disclosure of the number.<SUP>4</SUP> 
Also, state laws may impose restrictions on SSN use and disclosure, and 
they vary from state to state. Moreover, some records that contain SSNs 
are considered part of the public record and, as such, are routinely 
made available to the public for review.
---------------------------------------------------------------------------
    \4\ In this review, we do not include criminal provisions that 
might apply to the improper use of SSNs.
---------------------------------------------------------------------------
SSN Use Has Grown, in Part Because of Federal Requirements
    Since the creation of the SSN, the number of federal agencies and 
others that rely on it has grown beyond the original intended purpose. 
In 1936, the Social Security Administration (SSA) created a numbering 
system designed to provide a unique identifier, the SSN, to each 
individual. The agency uses SSNs to track workers' earnings and 
eligibility for Social Security benefits, and as of December 1998, SSA 
had issued 391 million SSNs. Since the creation of the SSN, other 
entities in both the public and private sectors have begun using SSNs, 
in part because of federal requirements. The number of federal agencies 
and others relying on the SSN as a primary identifier escalated 
dramatically, in part, because a number of federal laws were passed 
that authorized or required its use for specific activities. (See 
appendix I for examples of federal laws that authorize or mandate the 
collection and use of SSNs.) In addition, private businesses, such as 
financial institutions and health care service providers, also rely on 
individuals SSNs. In some cases, they require the SSN to comply with 
federal laws but, at other times, they routinely choose to use the SSNs 
to conduct business.
    In addition, the advent of computerized records further increased 
reliance on SSNs. Government entities are beginning to make their 
records electronically available over the Internet. Moreover, the 
Government Paperwork Elimination Act of 1998 requires that, where 
practicable, federal agencies provide by 2003 for the option of the 
electronic maintenance, submission, or disclosure of information. State 
government agencies have also initiated Web sites to address electronic 
government initiatives. Moreover, continuing advances in computer 
technology and the ready availability of computerized data have spurred 
the growth of new business activities that involve the compilation of 
vast amounts of personal information about members of the public, 
including SSNs, that businesses sell.
Identity Thieves Often Use SSNs
    The overall growth in the use of SSNs is important to individual 
SSN holders because these numbers, along with names and birth 
certificates, are among the three personal identifiers most often 
sought by identity thieves.<SUP>5</SUP> Identity theft is a crime that 
can affect all Americans. It occurs when an individual steals another 
individual's personal identifying information and uses it fraudulently. 
For example, SSNs and other personal information are used to 
fraudulently obtain credit cards, open utility accounts, access 
existing financial accounts, commit bank fraud, file false tax returns, 
and falsely obtain employment and government benefits. SSNs play an 
important role in identity theft because they are used as breeder 
information to create additional false identification documents, such 
as drivers licenses.
---------------------------------------------------------------------------
    \5\ United States Sentencing Commission, Identity Theft Final Alert 
(Washington, D.C.: Dec. 15, 1999).
---------------------------------------------------------------------------
    Recent statistics collected by federal and consumer reporting 
agencies indicate that the incidence of identity theft appears to be 
growing.<SUP>6</SUP> The Federal Trade Commission (FTC), the agency 
responsible for tracking identity theft, reports that complaint calls 
from possible victims of identity theft grew from about 445 calls per 
week in November 1999, when it began collecting this information, to 
about 3,000 calls per week by December 2001. However, FTC noted that 
this increase in calls might also, in part, reflect enhanced consumer 
awareness. In addition, SSA's Office of the Inspector General, which 
operates a fraud hotline, reports that allegations of SSN misuse 
increased from about 11,000 in fiscal year 1998 to more than 65,200 in 
fiscal year 2001. However, some of the reported increase may be a 
result of a growth in the number of staff SSA assigned to field calls 
to the Fraud Hotline during this period. SSA staff increased from 11 to 
over 50 during this period, which allowed personnel to answer more 
calls. Also, officials from two of the three national consumer 
reporting agencies report an increase in the number of 7 year fraud 
alerts placed on consumer credit files, which they consider to be 
reliable indicators of the incidence of identity theft.<SUP>7</SUP> 
Finally, it is difficult to determine how many individuals are 
prosecuted for identity theft because law enforcement entities report 
that identity theft is almost always a component of other crimes, such 
as bank fraud or credit card fraud, and may be prosecuted under the 
statutes covering those crimes.
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, Identity Theft: Prevalence and 
Cost Appear to be Growing, GAO-02-363 (Washington, D.C.: Mar. 1, 2002).
    \7\ A fraud alert is a warning that someone may be using the 
consumer's personal information to fraudulently obtain credit. When a 
fraud alert is placed on a consumer's credit card file, it advises 
credit grantors to conduct additional identity verification before 
granting credit. The third consumer reporting office offers fraud 
alerts that can vary from 2 to 7 years at the discretion of the 
individual.
---------------------------------------------------------------------------
    Most often, identity thieves use SSNs belonging to real people 
rather than making one up; however, on the basis of a review of 
identify theft reports, victims usually (75 percent of the time) did 
not know where or how the thieves got their personal 
information.<SUP>8</SUP> In the 25 percent of the time when the source 
was known, the personal information, including SSNs, usually was 
obtained illegally. In these cases, identity thieves most often gained 
access to this personal information by taking advantage of an existing 
relationship with the victim. The next most common means of gaining 
access were by stealing information from purses, wallets, or the mail. 
In addition, individuals can also obtain SSNs from their workplace and 
use them themselves or sell them to others. Finally, SSNs and other 
identifying information can be obtained legally through Internet sites 
maintained by both the public and private sectors and from records 
routinely made available to the public by government entities and 
courts. Because the sources of identity theft cannot be more accurately 
pinpointed, it is not possible at this time to determine the extent to 
which the government's use of SSNs contributes to this problem as 
compared to use of SSNs by the private sector.
---------------------------------------------------------------------------
    \8\ This information is based on a review of 39 cases involving SSN 
theft drawn from the Federal Trade Commission's fiscal year 1998 
datafiles.
---------------------------------------------------------------------------
In Some Instances, SSNs Are to Be Protected from Public Disclosure
    No single federal law regulates the overall use or restricts the 
disclosure of SSNs by governments; however, a number of laws limit SSN 
use in specific circumstances. Generally, the federal government's 
overall use and disclosure of SSNs are restricted under the Freedom of 
Information Act and the Privacy Act. The Freedom of Information Act 
presumes federal government records are available upon formal request, 
but exempts certain personal information, such as SSNs. The purpose of 
the Privacy Act, broadly speaking, is to balance the government's need 
to maintain information about individuals with the rights of 
individuals to be protected against unwarranted invasions of their 
privacy by federal agencies. Also, the Social Security Act Amendments 
of 1990 provide some limits on disclosure, and these limits apply to 
state and local governments as well. In addition, a number of federal 
statutes impose certain restrictions on SSN use and disclosure for 
specific programs or activities.<SUP>9</SUP> At the state and county 
level, each state may have its own statutes addressing the public's 
access to government records and privacy matters; therefore, states may 
vary in terms of the restrictions they impose on SSN use and 
disclosure.
---------------------------------------------------------------------------
    \9\ For example, the Internal Revenue Code, which requires the use 
of SSNs for certain purposes, declares tax return information, 
including SSNs, to be confidential, limits access to specific 
organizations, and prescribes both civil and criminal penalties for 
unauthorized disclosure. For more information, see GAO-GGD-99-164. 
Also, the Personal Responsibility and Work Opportunity Act of 1996 
explicitly restricts the use of SSNs to purposes set out in the Act, 
such as locating absentee parents to collect child support payments.
---------------------------------------------------------------------------
    In addition, a number of laws provide protection for sensitive 
information, such as SSNs, when maintained in computer systems and 
other government records. Most recently, the Government Information 
Security Reform provisions of the Fiscal Year 2001 Defense 
Authorization Act require that federal agencies take specific measures 
to safeguard computer systems that may contain SSNs.<SUP>10</SUP> For 
example, federal agencies must develop an agency-wide information 
security management program. These laws do not apply to state and local 
governments; however, in some cases state and local governments have 
developed their own statutes or put requirements in place to similarly 
safeguard sensitive information, including SSNs, kept in their computer 
systems.
---------------------------------------------------------------------------
    \10\ These provisions supplement information security requirements 
established in the federal Computer Security Act of 1987, the Paperwork 
Reduction Act of 1995, the Clinger-Cohen Act of 1996, and Office of 
Management and Budget guidance.
---------------------------------------------------------------------------
SSNs Are Found in Some Public Records
    In addition to the SSNs used by program agencies to provide 
benefits or services, some records that contain SSNs are considered 
part of the public record and, as such, are routinely made available to 
the public for review. This is particularly true at the state and 
county level. Generally, state law governs whether and under what 
circumstances these records are made available to the public, and they 
vary from state to state. They may be made available for a number of 
reasons. These include the presumption that citizens need government 
information to assist in oversight and ensure that government is 
accountable to the people. Certain records maintained by federal, 
state, and county courts are also routinely made available to the 
public. In principle, these records are open to aid in preserving the 
integrity of the judicial process and to enhance the public trust and 
confidence in the judicial process. At the federal level, access to 
court documents generally has its grounding in common law and 
constitutional principles. In some cases, public access is also 
required by statute, as is the case for papers filed in a bankruptcy 
proceeding. As with federal courts, requirements regarding access to 
state and local court records may have a state common law or 
constitutional basis or may be based on state laws.
LSSNs Are Widely Used by Program Agencies at All Levels of Government, 
        but Could Be Better Protected by Them
    When federal, state, and county government agencies administer 
programs that deliver services and benefits to the public, they rely 
extensively on the SSNs of those receiving the benefits and services. 
SSNs provide a quick and efficient means of managing records and are 
used to conduct research and program evaluation. In addition, they are 
particularly useful when agencies share information with others to 
verify the eligibility of benefit applicants or to collect outstanding 
debts. Using SSNs for these purposes can save the government and 
taxpayers hundreds of millions of dollars each year. As they make this 
wide use of SSNs, government agencies are taking some steps to 
safeguard the numbers; however, certain key measures that could help 
protect SSNs are not uniformly in place at any level of government. 
First, when requesting SSNs, government agencies are not consistently 
providing individuals with key information mandated by federal law, 
such as whether individuals are required to provide their SSNs. Second, 
although agencies that use SSNs to provide benefits and services are 
taking steps to safeguard them from improper disclosure, our survey 
identified potential weaknesses in the security of information systems 
at all levels of government. Similarly, sometimes government agencies 
display SSNs on documents not intended for the public, and we found 
numerous examples of actions taken to limit the presence of SSNs on 
documents. However, these changes are not systematic and many 
government agencies continue to display SSNs on a variety of documents.
All Levels of Government Use SSNs Extensively for a Wide Range of 
        Purposes
    Most of the agencies we surveyed at all levels of government 
reported using SSNs extensively to administer their 
programs.<SUP>11</SUP> As shown in table 1, more agencies reported 
using SSNs for internal administrative purposes, such as using SSNs to 
identify, retrieve, and update their records, than for any other 
purpose. SSNs are so widely used for this purpose, in part, because 
each number is unique to an individual and does not change, unlike some 
other personal identifying information, such as names and addresses.
---------------------------------------------------------------------------
    \11\ Of the respondents to our survey, 14 state program departments 
and 13 county program departments reported that they do not obtain, 
receive, or use the SSN of program participants, service recipients, or 
individual members of the public. We did not verify this information.

   Table 1: Percentage of Program Agencies Using SSNs for Each Reason
                                 Listed
------------------------------------------------------------------------
                                          Federal     State      County
           Purpose of SSN Use             (N=55) <SUP>a</SUP>   (N=244)    (N=197)
                                          Percent    Percent    Percent
------------------------------------------------------------------------
Internal administrative purposes                82         90         89
------------------------------------------------------------------------
Sharing
------------------------------------------------------------------------
Verify applicants' eligibility; monitor         73         83         82
 accuracy of information individuals
 provide
------------------------------------------------------------------------
Collect debts individuals owe agency/           40         34         25
 government
------------------------------------------------------------------------
Research and Evaluation
------------------------------------------------------------------------
Conduct internal research or program            53         44         26
 evaluation
------------------------------------------------------------------------
Provide data to outside researchers              4         18          7
------------------------------------------------------------------------
<SUP>a</SUP> Total number of possible respondents
Source: GAO surveys of federal, state, and county departments and
  agencies. Table includes departments and agencies that administer
  programs and excludes courts, county clerks and recorders, and state
  licensing agencies. It excludes state departments of motor vehicles
  and tax administration.

    Many agencies also use SSNs to share information with other 
entities to bolster the integrity of the programs they administer. For 
example, the majority of agencies at all three levels of government 
reported sharing information containing SSNs for the purpose of 
verifying an applicant's eligibility for services or benefits. Agencies 
use applicants' SSNs to match the information they provide with 
information in other data bases, such as other federal benefit paying 
agencies, state unemployment agencies, the Internal Revenue Service, or 
employers. As unique identifiers, SSNs help ensure that the agency is 
matching information on the correct person. Also, some agencies at each 
level of government reported sharing data containing SSNs to collect 
debts owed them. Using SSNs for these purposes can save the government 
and taxpayers hundreds of millions of dollars, such as when SSA matched 
its data on Supplemental Security Income recipients with state and 
local correctional facilities to identify prisoners who were no longer 
eligible for benefits.<SUP>12</SUP> Doing so helped identify more than 
$150 million in Supplemental Security Income overpayments and prevented 
improper payments of more than $170 million over an 8-month period. 
Finally, SSNs along with other program data, are sometimes used for 
statistical programs, research, and evaluation, in part because they 
provide government agencies and others with an effective mechanism for 
linking data on program participation with data from other 
sources.<SUP>13</SUP>
---------------------------------------------------------------------------
    \12\ SSI provides cash assistance to needy individuals who are 
aged, blind, or disabled.
    \13\ In some cases, records containing SSNs are sometimes matched 
across multiple agency or program databases. The statistical and 
research communities refer to the process of matching records 
containing SSNs for statistical or research purposes as ``record 
linkage.'' See U.S. General Accounting Office, Record Linkage and 
Privacy: Issues in Creating New Federal Research and Statistical 
Information, GAO-01-126SP (Washington, D.C.: Apr. 2001).
---------------------------------------------------------------------------
    When government agencies that administer programs share records 
containing individuals' SSNs with other entities, they are most likely 
to share them with other government agencies.<SUP>14</SUP> After that, 
the largest percentage of federal and state program agencies report 
sharing SSNs with contractors (54 and 39 percent respectively), and a 
relatively large percentage of county program agencies report sharing 
with contractors as well (28 percent). Agencies across all levels of 
government use contractors to help them fulfill their program 
responsibilities, such as determining eligibility for services and 
conducting data processing activities. In addition to sharing SSNs with 
contractors, government agencies also share SSNs with private 
businesses, such as credit bureaus and insurance companies, as well as 
debt collection agencies, researchers, and, to a lesser extent, with 
private investigators.
---------------------------------------------------------------------------
    \14\ On the federal level, data sharing often involves computerized 
record matching. The Computer Matching and Privacy Protection Act of 
1988, which amended the Privacy Act, specifies procedural safeguards 
affecting agencies' use of Privacy Act records in performing certain 
types of computerized matching programs, including due process rights 
for individuals whose records are being matched. These due process 
rights were further clarified in the Computer Matching and Privacy 
Protection Amendments of 1990.
---------------------------------------------------------------------------
    In addition, all government personnel departments we surveyed 
reported using their employees' SSNs to fulfill at least some of their 
responsibilities as employers. Aside from requiring that employers 
report on their employees' wages to SSA, federal law also requires that 
states maintain employers' reports of newly hired employees identified 
by SSN. The national database is used by state child support agencies 
to locate parents who are delinquent in child support payments. In 
addition, employers responding to our survey said they use SSNs to help 
them maintain internal records and provide employee benefits. To 
provide these benefits, employers often share data on employees with 
other entities, such as health care providers or pension plan 
administrators.
Many Government Entities Collect SSNs without Providing Required 
        Information
    When a government agency requests an individual's SSN, the 
individual needs certain information to make an informed decision about 
whether to provide their SSN to the government agency or not. 
Accordingly, section 7 of the Privacy Act requires that any federal, 
state, or local government agency, when requesting an SSN from an 
individual, provide that individual with three key pieces of 
information.<SUP>15</SUP> Government entities must
---------------------------------------------------------------------------
    \15\ Section 7 of the Privacy Act is not codified with the rest of 
the act, but rather is found in the note section to 5 U.S.C. 552a.

        0  <box> Ltell individuals whether disclosing their SSNs is 
        mandatory or voluntary;
          <box> Lcite the statutory or other authority under which the 
        request is being made; and
          <box> Lstate what uses government will make of the 
        individual's SSN.

This information, which helps the individual make an informed decision, 
is the first line of defense against improper use.
    Although nearly all government entities we surveyed collect and use 
SSNs for a variety of reasons, many of these entities reported they do 
not provide individuals the information required under section 7 of the 
Privacy Act when requesting their SSNs. Federal agencies were more 
likely to report that they provided the required information to 
individuals when requesting their SSNs than were states or local 
government agencies. Even so, federal agencies did not consistently 
provide this required information; 32 percent did not inform 
individuals of the statutory authority for requesting the SSN and 21 
percent of federal agencies reported that they did not inform 
individuals of how their SSNs would be used. At the state level, about 
half of the respondents reported providing individuals with the 
required information, and at the county level, about 40 percent of the 
respondents reported doing so.
LMany Agencies Using SSNs to Administer Programs Do Not Have Uniform 
        Information Security Controls in Place
    When government agencies collect and use SSNs as an essential 
component of their operations, they need to take steps to mitigate the 
risk of individuals gaining unauthorized access to SSNs or making 
improper disclosure or use of SSNs. Over 90 percent of our survey 
respondents reported using both hard copy and electronic records 
containing SSNs when conducting their program activities. When using 
electronic media, many employ personal computers linked to computer 
networks to store and process the information they collect. This 
extensive use of SSNs, as well as the various ways in which SSNs are 
stored and accessed or shared, increase the risks to individuals' 
privacy and make it both important and challenging for agencies to take 
steps to safeguard these SSNs.
    No uniform guidelines specify what actions governments should take 
to safeguard personal information that includes SSNs. However, to gain 
a better understanding of whether agencies had measures in place to 
safeguard SSNs, we selected eight commonly used practices found in 
information security programs, and we surveyed the federal, state, and 
county programs and agencies on their use of these eight practices. 
Responses to our survey indicate that agencies that administer programs 
at all levels of government are taking some steps to safeguard SSNs; 
however, potential weaknesses exist at all levels. Many survey 
respondents reported adopting some of the practices; however, none of 
the eight practices were uniformly adopted at any level of government. 
In general, when compared to state and county government agencies, a 
higher percentage of federal agencies reported using most of the eight 
practices. However, despite the federal government's self-reported more 
frequent use of these practices relative to the state and counties, it 
is important to note that since 1996 we have consistently identified 
significant information security weaknesses across the federal 
government. We are not aware of a comparable comprehensive assessments 
of information security for either state or county government. (For 
additional information on the eight practices we selected and how they 
fit into the federal framework for an information security program, see 
appendix II.)
    Further, when SSNs are passed from a government agency to another 
entity, agencies need to take additional steps to continue protections 
for sensitive personal information that includes SSNs, such as imposing 
restrictions on the entities to help ensure that the SSNs are 
safeguarded.<SUP>16</SUP> Responses to our survey indicate that, when 
sharing such sensitive information, most agencies reported requiring 
those receiving personal data to restrict access to and disclosure of 
records containing SSNs to authorized persons and to keep records in 
secured locations. However, fewer agencies reported having provisions 
in place to oversee or enforce compliance with these requirements.
---------------------------------------------------------------------------
    \16\ In some cases, where federal agencies administer programs that 
provide federal funds to states and counties, the federal agency has 
spelled out program-specific requirements for information security that 
state and county government agencies are expected to follow when they 
use federal funds to operate these programs.
---------------------------------------------------------------------------
Government Agencies Display SSNs on Documents Not Intended for the 
        Public
    In the course of delivering their services or benefits, many 
government agencies occasionally display SSNs on documents that may be 
viewed by others, some of whom may not have a need for this personal 
information. These documents include payroll checks, vouchers for tax 
credits for childcare, travel orders, and authorization for training 
outside of the agency. Also, some personnel departments reported 
displaying employees' SSNs on their employee badges (27 percent of 
federal respondents, 5 percent of state, and 9 percent of county). 
Notably, the Department of Defense (DOD), which has over 2.9 million 
military and civilian personnel, displays SSNs on its military and 
civilian identification cards. On the state level, the Department of 
Criminal Justice in one state, which has about 40,000 employees, 
displays SSNs on all employee identification cards. According to 
department officials, some of their employees have taken actions such 
as taping over their SSNs so that prison inmates and others cannot view 
this personal information.
    SSNs are also displayed on documents that are not employee-related. 
For example, some benefit programs display the SSN on the benefit 
checks and eligibility cards, and over one-third of federal respondents 
reported including the SSN on official letters mailed to participants. 
Further, some state institutions of higher education display students' 
SSNs on identification cards. Finally, SSNs are sometimes displayed on 
business permits that must be posted in public view at an individual's 
place of business.
    In addition to these examples of SSN display, we also identified a 
number of instances where the Congress or governmental entities have 
taken or are considering action to reduce the presence of SSNs on 
documents that may be viewed by others. For example, the DOD commissary 
stopped requiring SSNs on checks written by members because of concerns 
about improper use of the SSNs and identity theft.<SUP>17</SUP> Also, a 
state comptroller's office changed its procedures so that it now offers 
vendors the option of not displaying SSNs on their business permits. 
Finally, some states have passed laws prohibiting the use of SSNs as a 
student identification number.
---------------------------------------------------------------------------
    \17\ As of March 2002, the Navy Commissary still requires SSNs on 
checks. Officials told us they hope to implement a system similar to 
the DOD Commissary by the end of 2002.
---------------------------------------------------------------------------
    These efforts to reduce display suggest a growing awareness that 
SSNs are private information, and the risk to the individual of placing 
an SSN on a document that others can see may be greater than the 
benefit to the agency of using the SSN in this manner. However, despite 
this growing awareness and the actions cited above, many government 
agencies continue to display SSNs on a variety of documents that can be 
seen by others.
LOpen Nature of Certain Government Records Results in Wide Access to 
        SSNs but Alternatives Exist
    Regarding public records, many of the state and county agencies 
responding to our survey reported maintaining records that contain 
SSNs; however federal program agencies maintain public records less 
frequently. At the state and county levels, certain offices, such as 
state licensing agencies and county recorders' offices, have 
traditionally been repositories for public records that may contain 
SSNs. In addition, courts at all three levels of government maintain 
public records that may contain SSNs. Officials who maintain these 
records told us their responsibility is to preserve the integrity of 
the record rather than protect the privacy of the individual SSN 
holder. However, we found examples of some government entities that are 
trying innovative approaches to protect the SSNs in such records from 
public display. Moreover, the general public has traditionally gained 
access to public records by visiting the office that maintains the 
records, an inconvenience that represents a practical limitation on the 
volume of SSNs any one person can collect. However, the growth of 
electronic record-keeping places new pressures on agencies to provide 
their data to the pubic on the Internet. Although few entities report 
currently making public records containing SSNs available on the 
Internet, several officials told us they are considering expanding the 
volume and type of such records available on their Web site. This would 
create new opportunities for gathering SSNs on a broader scale. Again, 
some entities are considering alternatives to making SSNs available on 
such a wide scale, while others are not.
Many State and County Public Records Contain SSNs
    As shown in table 2, more than two-thirds of the courts, county 
recorders, and state licensing agencies that reported maintaining 
public records reported that these records contained SSNs.<SUP>18</SUP> 
In addition, some program agencies also reported maintaining public 
records that contain SSNs.
---------------------------------------------------------------------------
    \18\ Of the respondents to our survey, 20 county recorders and 
courts and 5 state courts reported that they do not obtain, receive, or 
use the SSN of program participants, service recipients, or individual 
members of the public. We did not verify this information.

Table 2: Of Courts, County Recorders, and State Licensing Agencies, and of Program Agencies That Maintain Public
                       Records, Percentage That Maintain Public Records That Contain SSNs
----------------------------------------------------------------------------------------------------------------
                                                            Federal              State              County
                                                     -----------------------------------------------------------
                                                      Frequency  Percent  Frequency  Percent  Frequency  Percent
----------------------------------------------------------------------------------------------------------------
Courts, recorders, and licensing agencies that              3/3      100      21/31       68      73/95       77
 maintain public records with SSNs
----------------------------------------------------------------------------------------------------------------
Program agencies that maintain public records with         4/22       23     54/189       29     46/140       33
 SSNs
----------------------------------------------------------------------------------------------------------------
Source: Data from GAO survey of federal, state, and county departments and agencies. It excludes state
  departments of motor vehicles and tax administration.

    County clerks or recorders (hereinafter referred to as recorders) 
and certain state agencies often maintain records that contain SSNs 
because these offices have traditionally been the repository for key 
information that, among other things, chronicles various life events 
and other activities of individuals as they interact with 
government.<SUP>19</SUP> SSNs appear in these public records for a 
number of reasons. They may already be a part of a document that is 
submitted to a recorder for official preservation. For example, 
military veterans are encouraged to file their discharge papers, which 
contain SSNs, with their local recorder's office to establish a readily 
available record of their military service.<SUP>20</SUP> Also, 
documents that record financial transactions, such as tax liens and 
property settlements, contain SSNs to help identify the correct 
individual. In other cases, government officials are required by law to 
collect SSNs. For example, to aid in locating non-custodial parents who 
are delinquent in their child support payments, the federal Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996 requires 
that states have laws in effect to collect SSNs on applications for 
marriage, professional, and occupational licenses. Moreover, some state 
laws allow government entities to collect SSNs on voter registries to 
help avoid duplicate registrations. Although the law requires public 
entities to collect the SSN as part of these activities, this does not 
necessarily mean that the SSNs always must be placed on the document 
that becomes part of the public record.
---------------------------------------------------------------------------
    \19\ It differs from state-to-state as to whether certain records, 
such as marriage licenses and birth certificates, are maintained in 
county or state offices. Certain documents, however, such as land and 
title transfers, are almost always maintained at the local, or county, 
level.
    \20\ Veterans are advised that these are important documents which 
can be registered/recorded in most states or localities for a nominal 
fee making retrieval easy. In October 2001, DOD added a cautionary 
statement that recording these documents could subject them to public 
access in some states or localities.
---------------------------------------------------------------------------
    Courts at all three levels of government also collect and maintain 
records that are routinely made available to the public. Court records 
overall are presumed to be public; however, each court may have its own 
rules or practices governing the release of information.<SUP>21</SUP> 
As with recorders, SSNs appear in court documents for a variety of 
reasons. In many cases, SSNs are already a part of documents that are 
submitted by attorneys or individuals. These documents could be 
submitted as part of the evidence for a proceeding or could be included 
in documents, such as a petition for an action, a judgment or a divorce 
decree. In other cases, courts include SSNs on documents they and other 
government officials create, such as criminal summonses, arrest 
warrants, and judgments, to increase the likelihood that the correct 
individual is affected (i.e. to avoid arresting the wrong John Smith). 
In some cases federal law requires that SSNs be placed in certain 
records that courts maintain, such as records pertaining to child 
support orders, divorce decrees, and paternity determinations. Again, 
this assists child support enforcement agencies in efforts to help 
parents collect money that is owed to them. These documents may also be 
maintained at county clerk or recorders' offices.
---------------------------------------------------------------------------
    \21\ In some states, for example, adoption records, grand jury 
records, and juvenile court records are not part of the public record. 
In addition, some court documents pertinent to the cases may or may not 
be in the public record, depending on local court practice. Finally, 
the judge can choose to explicitly seal a record to protect the 
information it contains from public review.
---------------------------------------------------------------------------
    When federal, state, or county entities, including courts, maintain 
public records, they are generally prohibited from altering the formal 
documents. Officials told us that their primary and mandated interest 
is in preserving the integrity of the record rather than protecting the 
privacy of the individual named in the record. Officials told us they 
believe they have no choice but to accept the documents with the SSNs 
and fulfill the responsibility of their office by making them available 
to the general public.
Alternatives to Displaying SSNs in Public Records Exist
    When creating public documents or records, such as marriage 
licenses, some government agencies are trying new innovative approaches 
that protect SSNs from public display. For example, some have developed 
alternative types of forms to keep SSNs and other personal information 
separate from the portion of a document that is accessible to the 
general public.<SUP>22</SUP> Changing how the information is captured 
on the form itself can help solve the dilemma of many county recorders 
who, because they are the official record keepers of the county, are 
usually not allowed to alter an original document after it is 
officially filed in their office. For example, a county recorder told 
us that Virginia recently changed its marriage license application so 
that the form is now in triplicate, and the copy that is available to 
the general public does not contain the SSN. However, an official told 
us even this seemingly simple change in the format of a document can be 
challenging because, in some cases, the forms used for certain 
transactions are prescribed by the state. In addition to these efforts 
at recorders offices, some courts have made efforts to protect SSNs in 
documents that the general public can access through court clerk 
offices. For example, one state court offers the option of filing a 
separate form containing the SSN that is kept separate from the part of 
the record that is available for public inspection.
---------------------------------------------------------------------------
    \22\ In some cases, however, the law requires that the SSN appear 
on the document itself, as on death certificates.
---------------------------------------------------------------------------
    These solutions, however, are most effective when the recorder's 
office, state agencies, and courts prepare the documents themselves. In 
those many instances where others file the documents, such as 
individuals, attorneys, or financial institutions, the receiving agency 
has less control over what is contained in the document and, in many 
cases, must accept it as submitted. Officials told us that, in these 
cases, educating the individuals who submit the documents for the 
record may help to reduce the appearance of SSNs. This would include 
individuals, financial institutions, title companies, and attorneys, 
who could begin by considering whether SSNs are required on the 
documents they submit. It may be possible to limit the display of SSNs 
on some of these documents or, where SSNs are deemed necessary to help 
identify the subject of the documents, it may be possible to truncate 
the SSN to the last four digits.
    While the above options are available for public records created 
after an office institutes changes, fewer options exist to limit the 
availability of SSNs in records that have already been officially filed 
or created. One option is redacting or removing SSNs from documents 
before they are made available to the general public. In our fieldwork, 
we found instances where departments redact SSNs from copies of 
documents that are made available to the general public, but these 
tended to be situations where the volume of records and number of 
requests were minimal, such as in a small county. Most other officials 
told us redaction was not a practical alternative for public records 
their offices maintain. Although redaction would reduce the likelihood 
of SSNs being released to the general public, we were told it is time-
consuming, labor intensive, difficult, and in some cases would require 
change in law. In documents filed by others outside of the office, SSNs 
do not appear in a uniform place and could appear many times throughout 
a document. In these cases, it is a particularly lengthy and labor-
intensive process to find and redact SSNs. Moreover, redaction would be 
less effective in those offices where members of the general public can 
inspect and copy large numbers of documents without supervision from 
office staff. In these situations, officials told us that they could 
change their procedures for documents that they collect in the future, 
but it would be extremely difficult and expensive to redact SSNs on 
documents that have already been collected and filed.
LTraditional Access to Public Records Has Practical Limitations That 
        Would Not Exist if the Records Were Placed on the Internet
    Traditionally, the public has been able to gain access to SSNs 
contained in public records by visiting the recorder's office, state 
office, or court house; however, the requirement to visit a physical 
location and request or search for information on a case-by-case basis 
offers some measure of protection against the widespread collection and 
use of others' SSNs from public records.<SUP>23</SUP> Yet, this limited 
access to information in public records is not always the case. We 
found examples where members of the public can obtain easy access to 
larger volumes of documents containing SSNs. Some offices that maintain 
public records offer computer terminals on site where individuals can 
look up electronic files from a site-specific database. In one of the 
offices we visited, documents containing SSNs that were otherwise 
accessible to the public were also made available in bulk to certain 
groups. When asked about sharing information containing SSNs with other 
entities, a higher percentage of county recorders reported sharing 
information containing SSNs with marketing companies, collection 
agencies, credit bureaus, private investigators, and outside 
researchers.
---------------------------------------------------------------------------
    \23\ Some jurisdictions also permit citizens to request public 
records through the mail.
---------------------------------------------------------------------------
    Finally, few agencies reported that they place records containing 
SSNs on their Internet sites; however, this practice may be growing. Of 
those agencies that reported having public records containing SSNs, 
only 3 percent of the state respondents and 9 percent of the county 
respondents reported that the public can access these documents on 
their Web site. In some cases, such as the federal courts, documents 
containing SSNs are available on the Internet only to paid subscribers. 
However, increasing numbers of departments are moving toward placing 
more information on the Internet. We spoke with several officials that 
described their goals for having records available electronically 
within the next few years. Providing this easy access of records 
potentially could increase the opportunity to obtain records that 
contain SSNs that otherwise would not have been obtained by visiting 
the government agency.
    While planning to place more information on the Internet, some 
courts and government agencies are examining their policies to decide 
whether SSNs should be made available on documents on their Web sites. 
In our fieldwork, we heard many discussions of this issue, which is 
particularly problematic for courts and recorders, who have a 
responsibility to make large volumes of documents accessible to the 
general public. On the one hand, officials told us placing their 
records on the Internet would simply facilitate the general public's 
ability to access the information. On the other hand, officials 
expressed concern that placing documents on the Internet would remove 
the natural deterrent of having to travel to the courthouse or 
recorder's office to obtain personal information on individuals.
    Again, we found examples where government entities are searching 
for ways to strike a balance. For example, the Judicial Conference of 
the United States recently released a statement on electronic case file 
availability and Internet use in federal courts. They recommended that 
documents in civil cases and bankruptcy cases should be made available 
electronically, but SSNs contained in the documents should be truncated 
to the last four digits. Also, we spoke to one county recorder's office 
that had recently put many of its documents on their Web site, but had 
decided not to include categories of documents that were known to 
contain SSNs. In addition, some states are taking action to limit the 
display of SSNs on the Internet. Given the likely growth of public 
information on the Internet, the time is right for some kind of 
forethought about the inherent risk posed by making SSNs and other 
personal information available through this venue.
Concluding Observations
    SSNs are widely used in all levels of government and play a central 
role in how government entities conduct their business. As unique 
identifiers, SSNs are used to help make record-keeping more efficient 
and are most useful when government entities share information about 
individuals with others outside their organization. The various 
benefits from sharing data help ensure that government agencies fulfill 
their mission and meet their obligation to the taxpayer by, for 
example, making sure that the programs serve only those eligible for 
services. However, the gaps in safeguarding SSNs that we have 
identified create the potential for SSN misuse. Although the extent to 
which the government's broad use of SSNs contributes to identity theft 
is not clear, measures to encourage governments to better secure and 
reduce the display of SSNs could at least help minimize the risk of SSN 
misuse. It is important to focus on ways to accomplish this. We will be 
reporting in more detail on these issues at the end of this month and 
look forward to exploring additional options to better protect SSNs 
with you as we complete our work.
Contacts and Acknowledgments
    For further information regarding this testimony, please contact 
Barbara D. Bovbjerg, Director, or Kay E. Brown, Assistant Director, 
Education, Workforce, and Income Security at (202) 512-7215. 
Individuals making key contributions to this testimony include Lindsay 
Bach, Jeff Bernstein, Richard Burkard, Jacqueline Harpp, Daniel Hoy, 
Raun Lazier, Vernette Shaw, Jacquelyn Stewart, and Anne Welch.
                                ------                                


 Appendix I: Examples of Federal Statutes That Authorize or Mandate the
              Collection and Use of Social Security Numbers
------------------------------------------------------------------------
                                                           Government
                                      General purpose      entity and
          Federal statute            for collecting or    authorized or
                                         using SSN        required use
------------------------------------------------------------------------
Tax Reform Act of 1976               General public     Authorizes
                                      assistance         states to
42 U.S.C. 405(c)(2)(c)(i)             programs, tax      collect and use
                                      administration,    SSNs in
                                      driver's           administering
                                      license, motor     any tax,
                                      vehicle            general public
                                      registration       assistance,
                                                         driver's
                                                         license, or
                                                         motor vehicle
                                                         registration
                                                         law
------------------------------------------------------------------------
Food Stamp Act of 1977               Food Stamp         Mandates the
                                      Program            secretary of
7 U.S.C. 2025(e)(1)                                      agriculture and
                                                         state agencies
                                                         to require SSNs
                                                         for program
                                                         participation
------------------------------------------------------------------------
Deficit Reduction Act of 1984        Eligibility        Requires that,
                                      benefits under     as a condition
42 U.S.C. 1320b-7(1)                  the Medicaid       of eligibility
                                      program            for Medicaid
                                                         benefits,
                                                         applicants for
                                                         and recipients
                                                         of these
                                                         benefits
                                                         furnish their
                                                         SSNs to the
                                                         state
                                                         administering
                                                         program
------------------------------------------------------------------------
Housing and Community                Eligibility for    Authorizes the
  Development Act of 1987             HUD programs       secretary of
                                                         the Department
42 U.S.C. 3543(a)                                        of Housing and
                                                         Urban
                                                         Development to
                                                         require
                                                         applicants and
                                                         participants in
                                                         HUD programs to
                                                         submit their
                                                         SSNs as a
                                                         condition of
                                                         eligibility
------------------------------------------------------------------------
Family Support Act of 1988           Issuance of birth  Requires states
                                      certificates       to obtain
42 U.S.C. 405(c)(2)(C)(ii)                               parents' SSNs
                                                         before issuing
                                                         a birth
                                                         certificate
                                                         unless there is
                                                         good cause for
                                                         not requiring
                                                         the number
------------------------------------------------------------------------
Technical and Miscellaneous Revenue  Blood donation     Authorizes
 Act of 1988                                             states and
                                                         political
42 U.S.C. 405(c)(2)(D)(i)                                subdivisions to
                                                         require that
                                                         blood donors
                                                         provide their
                                                         SSNs
------------------------------------------------------------------------
Food, Agriculture, Conservation,     Retail and         Authorizes the
 and Trade Act of 1990                wholesale          secretary of
                                      businesses         agriculture to
42 U.S.C. 405(c)(2)(C)                participation in   require the
                                      food stamp         SSNs of
                                      program            officers or
                                                         owners of
                                                         retail and
                                                         wholesale food
                                                         concerns that
                                                         accept and
                                                         redeem food
                                                         stamps
------------------------------------------------------------------------
Omnibus Budget Reconciliation Act    Eligibility for    Requires
 of 1990                              Veterans Affairs   individuals to
                                      compensation or    provide their
38 U.S.C. 510(c)                      pension benefits   SSNs to be
                                      programs           eligible for
                                                         Department of
                                                         Veterans
                                                         Affairs'
                                                         compensation or
                                                         pension
                                                         benefits
                                                         programs
------------------------------------------------------------------------
Social Security Independence and     Eligibility of     Authorizes
 Program Improvements Act of 1994     potential jurors   states and
                                                         political
42 U.S.C. 405(c)(2)(E)                                   subdivisions of
                                                         states to use
                                                         SSNs to
                                                         determine
                                                         eligibility of
                                                         potential
                                                         jurors
------------------------------------------------------------------------
Personal Responsibility and Work     Various license    Mandates that
 Opportunity Reconciliation Act of    applications;      states have
 1996                                 divorce and        laws in effect
                                      child support      that require
42 U.S.C. 666(a)(13)                  documents; death   collection of
                                      certificates       SSNs on
                                                         applications
                                                         for driver's
                                                         licenses and
                                                         other licenses;
                                                         requires
                                                         placement in
                                                         the pertinent
                                                         records of the
                                                         SSN of the
                                                         person subject
                                                         to a divorce
                                                         decree, child
                                                         support order,
                                                         paternity
                                                         determination;
                                                         requires SSNs
                                                         on death
                                                         certificates;
                                                         creates
                                                         national
                                                         database for
                                                         child support
                                                         enforcement
                                                         purposes
------------------------------------------------------------------------
Debt Collection Improvement Act of   Persons doing      Requires those
 1996                                 business with a    doing business
                                      federal agency     with a federal
31 U.S.C. 7701(c)                                        agency, i.e.,
                                                         lenders in a
                                                         federal
                                                         guaranteed loan
                                                         program;
                                                         applicants for
                                                         federal
                                                         licenses,
                                                         permits, right-
                                                         of-ways,
                                                         grants, or
                                                         benefit
                                                         payments;
                                                         contractors of
                                                         an agency and
                                                         others to
                                                         furnish SSNs to
                                                         the agency
------------------------------------------------------------------------
Higher Education Act Amendments of   Financial          Authorizes the
 1998                                 assistance         secretary of
                                                         education to
20 U.S.C. 1090(a)(7)                                     include the
                                                         SSNs of parents
                                                         of dependent
                                                         students on
                                                         certain
                                                         financial
                                                         assistance
                                                         forms
------------------------------------------------------------------------
Internal Revenue Code                Tax returns        Authorizes the
                                                         commissioner of
(various amendments)                                     the Internal
26 U.S.C. 6109                                           Revenue Service
                                                         to require that
                                                         taxpayers
                                                         include their
                                                         SSNs on tax
                                                         returns
------------------------------------------------------------------------
Source: GAO review of applicable federal laws

                                 ______
                                 

  Appendix II: Our Eight Practices and How They Fit Into the Federal 
             Framework for an Information Security Program

    Certain federal laws lay out a framework for federal agencies to 
follow when establishing information security programs to protect 
sensitive personal information, such as SSNs.<SUP>24</SUP> The federal 
framework is consistent with strategies used by private and public 
organizations that we previously reported have strong information 
security programs.<SUP>25</SUP> This framework includes four principles 
that are important to an overall information security program. These 
are to periodically assess risk, implement policies and controls to 
mitigate risks, promote awareness of risks for information security, 
and to continually monitor and evaluate information security practices. 
To gain a better understanding of whether agencies had in place 
measures to safeguard SSNs that are consistent with the federal 
framework, we selected eight commonly used practices found in 
information security programs--two for each principle. Use of these 
eight practices could give an indication that an agency has an 
information security program that follows the federal 
framework.<SUP>26</SUP> We surveyed the federal, state, and county 
programs and agencies on their use of these eight practices:
---------------------------------------------------------------------------
    \24\ See federal Government Information Security Reform provisions 
of the fiscal year 2001 Defense Authorization Act, the federal Computer 
Security Act of 1987, the Paperwork Reduction Act of 1995, the Clinger-
Cohen Act of 1996, and Office of Management and Budget guidance.
    \25\ U.S. General Accounting Office, Executive Guide: Information 
Security Management, Learning From Leading Organizations, GAO/AIMD-98-8 
(Washington, D.C.: May 1998) reported on strategies used by private and 
public organizations--a financial services corporation, a regional 
utility, a state university, a retailer, a state agency, a nonbank 
financial institution, a computer vendor, and an equipment 
manufacturer--that were recognized as having strong information 
security programs. The information security strategies discussed in the 
report were only a part of the organizations' broader information 
management strategies.
    \26\ States may also require any number of the eight practices, but 
the requirements would vary from state to state.
---------------------------------------------------------------------------
Periodically assess risk
          <box> LConduct risk assessments for computer systems that 
        contain SSNs
          <box> LDevelop written security plan for computer systems 
        that contain SSNs
Implement policies and controls to mitigate risks
          <box> LDevelop written policies for handling records with 
        SSNs
          <box> LControl access to computerized records that contain 
        SSNs, such as assigning different levels of access and using 
        methods to identify employees (e.g., use ID cards, PINS, or 
        passwords)
Promote awareness of risks for information security
          <box> LProvide employees training or written materials on 
        responsibilities for safeguarding records
          <box> LTake disciplinary actions against employees for 
        noncompliance with policies, such as placing employees on 
        probation, terminating employment, or referring to law 
        enforcement
Continually monitor and evaluate information security practices
          <box> LMonitor employees' access to computerized records with 
        SSNs, such as tracking browsing and unusual transactions
          <box> LHave computer systems independently audited

                                <F-dash>


    Chairman SHAW. Thank you. Ms. Brown?
    Ms. BROWN. I am here to answer----
    Chairman SHAW. You are with Barbara Bovbjerg.
    Ms. BROWN. Yes.
    Ms. BOVBJERG. I brought reinforcements today.
    Chairman SHAW. Good for you. We are delighted to have in 
you in Florida.
    Ms. BOVBJERG. Thank you for inviting me.
    Chairman SHAW. Lisa, you told a very compelling story with 
regard to your 3-year struggle. Has the defendant been 
adjudicated guilty or what has happened to the case?
    Ms. TROPEPE. She received 4 months of in-house arrest, 
probation time, and community service.
    Chairman SHAW. How about restitution?
    Ms. TROPEPE. She surrendered the $10,000 cashier's checks 
that she got from my bank account, and the balance of the 
moneys were never--there was no restitution, none that I am 
aware of.
    Mr. MORELL. I can give you a little bit of a backup on 
this, and we can--
    Chairman SHAW. Excuse me, for the record, this is Mr. Tim 
Morell.
    Mr. MORELL. Tim Morell, right. I am also the current co-
Vice Chairman of the Computer Law Committee of the Florida bar, 
and we have been actively supporting and helping to get 
publicity for your bill, as you know from a year or two ago 
when I was in Del Ray helping out and trying to find out some 
information on this.
    We were unable to get much of the prosecution at the State 
court level. It turned out that the only thing we could do was 
go to U.S. Attorney's Office. We were told that the amount of 
money involved, unless it was more than $100,000, wasn't going 
to get anybody's interest, so we ended up going to the media. 
We went to Channel 12, and we went to the Palm Beach Post. Once 
that was exposed, then the U.S. Attorney's Office took the 
case, and I have a copy of a Palm Beach Post summary that we 
can put into the record of what actually ended up happening. 
And I will read it if you would like to have that into the 
record.
    Chairman SHAW. Without objection, I will place the entire 
Palm Beach Post article that you are holding into the record.
    [The article follows:]
                                                    Palm Beach Post
                                           West Palm Beach, Florida
WEST PALM BEACH--A temporary worker who stole the identity of a woman 
in her office, took $13,000 from her bank account and ran up $5,000 in 
credit card charges in her name was sentenced Friday to 4 years' 
probation and 150 hours of community service. Terkesha Lane 21, of 
Riviera Beach, faced up to 3 years in prison, a $25,000 fine and 
restitution. U.S. District Court Judge Daniel T.K. Hurley took note of 
Lane's age, her clean record and that she has a 2-year-old child. She 
also helped authorities track down a $10,000 cashier's check. ``I think 
you earned this by everything else you have done in your life,'' the 
judge said. Lane who will be on home detention for the first 4 months 
of the probation and pay $100, apologized for the elaborate scheme in 
which she managed to obtain a driver's license in the name of Lisa 
Tropepe, withdrew money from Tropepe's bank account and ran up credit 
card charges in Tropepe's name. The bank reimbursed Tropepe and she 
restored her credit after hiring a lawyer.

                                <F-dash>


    Mr. MORELL. She was given, in summary, just 4 years 
probation and 150 hours of community service. There were some 
other monetary amounts here that we don't think will ever be 
collectable, but we will put this into evidence.
    Chairman SHAW. Thank you. Mr. Ross, we will make available 
to you and Ms. Tropepe a transcript of this particular hearing 
that you can go in and show your creditors.
    Mr. ROSS. Thank you.
    Chairman SHAW. That you have appeared before a 
congressional Committee who is studying the tragedy of identity 
theft. Mark?
    Mr. FOLEY. Well, I think this illuminates the problem. In 
addition to having to go through hours, now we have got a 
lawyer and an engineer, both professionals who have both 
competence and ability to probably pursue this. Think about a 
poor person who is just struggling?
    Ms. TROPEPE. That is right.
    Mr. FOLEY. And this is outrageous. And 4 years probation to 
steal how much, $40,000?
    Ms. TROPEPE. Over $20,000.
    Mr. FOLEY. Plus, plus.
    Ms. TROPEPE. Plus, plus.
    Mr. FOLEY. I mean with credit damage and all.
    Ms. TROPEPE. That is not including the cost to the firm, 
myself, the cost to hire Tim Morell to clear my name. It is not 
including all that.
    Chairman SHAW. But the bank they made good on your account, 
didn't they?
    Ms. TROPEPE. The bank made good on the account, and the 
credit cards that she received or the instant credit that she 
received, the credit companies, they paid for that as well. So 
there was no out-of-pocket money, but all the other--the 
attorney and the time and the grief that it has caused my 
office. I was in the process of becoming a partner, and 
checking my billable time was slowly declining every day, and I 
just wasn't functioning right. And then we finally hired an 
attorney that helped alleviate that, but I can tell you that 
there isn't a day that doesn't go by that I don't think about 
the fact that there is somebody around that is right up the 
street from me that can do it again. And if she doesn't do it, 
she has the information still to this day to give it to 
somebody else. It just doesn't seem to me--the punishment, 
without a doubt, does not fit the crime.
    Mr. FOLEY. That is where I see we have two problems. We 
have, one, punishment, because if you can get away with the 
kind of larceny that has occurred with that minimal sentence, 
it encourages people to go ahead and try. Secondly, if you 
can't protect the Social Security Numbers, it is a catch-22.
    Ms. TROPEPE. Right.
    Mr. FOLEY. So you are around and around in circles on this 
issue.
    Mr. MORELL. This file represents a lot of effort here to 
try to keep Lisa's credit in decent shape. She continues to 
have--a lot of the times we try to keep this so that it doesn't 
bother her, but as recently as 6 months ago her identity was 
compromised in, what was it, Ireland or somewhere in the 
British Isles. Somebody had compromised her identity mostly 
because once it happens once and you are out there, then there 
is almost like the reasonable doubt, it would be hard to prove 
who the criminal was after that. And so they go for you. And 
that was one of the reasons why we were very nervous about even 
coming here today. The thing keeps coming back, and the nature 
of computers is such that once the record is out there somebody 
inadvertently enters it again or it comes back up in 6 months, 
and it is all right back like it never left. And it has been a 
constant struggle to try to keep after those credit bureaus, to 
keep telling them Lisa is not the perpetrator.
    Mr. FOLEY. The other problem is the credit reporting. When 
you go now to a store you--and I probably can't take advantage 
of these instant credit opportunities----
    Ms. TROPEPE. Never again.
    Mr. FOLEY. Because we will always be----
    Ms. TROPEPE. Right.
    Mr. FOLEY. On somebody's list that they have to flag, that 
they have to check, that they have to make sure you are who you 
are for our safeguard, but nonetheless it inconveniences us.
    Ms. TROPEPE. Right. Well, there is a fraud alert on my 
name, so I will never be able to get instant credit again. I 
will have to go through the longer process in order to obtain a 
credit card for the rest of my life. And this all started with 
her getting my Social Security Number on the Internet.
    Chairman SHAW. Did she get it out of the payroll records of 
the company or----
    Ms. TROPEPE. No. She told me that her cousin in Miami 
helped her get it off the computer.
    Chairman SHAW. Oh, you talked to her about it since she was 
charged.
    Ms. TROPEPE. Well, I am the one who solved the crime. I 
went to my ATM machine and sometimes you can't tell when a 
couple dollars are missing, okay? But it was $13,000 subtracted 
out of my account, which alerted me that night. So the very 
next day I called up First Union and said, ``What is happening 
to my account?'' Meanwhile, I am getting every day credit card 
bills in the mail on a daily basis that I knew nothing about. 
They told me that I withdrew a $10,000 cashier's check 2 days 
prior at the Okeechobee Boulevard branch in West Palm Beach, 
and I said I have never been to the Okeechobee Boulevard branch 
in West Palm Beach. I drove over there and they replayed the 
tapes from the bank, and I identified her on those bank tapes. 
If she had not gone to the bank and started withdrawing cash 
from my account, I would have never found out who the 
perpetrator was.
    And then after that she said to me that she also did--you 
know, you kind of figure that, okay, since she has taken money 
out of my account she is probably doing the credit cards too. 
And I asked her and she said, ``Yes, I did that too.'' ``And 
how did you do it?'' ``I got your Social Security Number from 
my cousin in Miami who looked it up on the Internet.''
    Chairman SHAW. What site?
    Ms. TROPEPE. So that is how it started. And then once she 
had that, she had my home address because she was our 
receptionist. She took those two pieces of information to DMV, 
the Division of Motor Vehicles, received a driver's license 
with my name, address, and information and her picture.
    Mr. MORELL. That is what I wanted to follow up with. By 
having the Social Security Number, she was able to get a 
duplicate driver's license, although our system in Florida has 
a picture ID. They could have clearly seen the woman who 
impersonated her looks nothing like Lisa, nothing at all 
physically. But they had her picture there, but it didn't 
matter what the picture was. Because the woman had Lisa's 
Social Security, they gave this woman a driver's license and 
that became the key to everything.
    Ms. TROPEPE. And the Division of Motor Vehicles did have my 
picture on file because, as you both probably know, I was a 
Broward County resident until about 4 years ago. I went to the 
Division of Motor Vehicles, got a new driver's license, so my 
picture was on file in Palm Beach County. They just never 
bothered to look at my picture when they gave her the duplicate 
driver's license.
    Mr. FOLEY. Anthony, why don't you tell us about some of the 
late night calls during these periods after your credit has 
been run up.
    Mr. ROSS. Late night calls?
    Mr. FOLEY. Collection agencies, people. I mean this is the 
other side of it you don't realize.
    Mr. ROSS. Well, as a Federal Law Enforcement Officer and I 
teach at the Federal Law Enforcement Training Center in 
Brunswick, Georgia, and we are on a 6-day work week right now. 
And that and family obligations and just trying to live on that 
extra day I get off and deal with these has just been a 
nightmare. And what happens is you receive--if you send in the 
proper paperwork to try to get this cleared with a creditor, 
they have a certain number of days that they are looking to 
have you respond in. And that is not always necessarily 
possible, especially traveling and other things that do occur 
within the job. So then you get another letter saying, ``Well, 
it appears since you have not sent the paperwork in that you no 
longer want to pursue this and that you are the person that has 
made these charges, and now this bill is yours, basically.''
    Now you have to go back and call, ``I do want to pursue 
this. I am just not able to do it in your time requirements, 
and now we are starting all over again.'' Or I have had 
instances where they have closed it out and I will say, ``I 
haven't received anything more on this.'' ``Well, we didn't get 
that back in time.'' Or I have had situations where you may 
have certain stores that use one banking institution or credit 
company that supplies credit for all of them. Now you have 
three different--in this case, I have three different 
fraudulent accounts, but it was backed by one creditor. Rather 
than them combining that as one fraudulent account, I had to 
submit documents individually for each one, and then they 
assigned them to three different fraud investigators within 
this one company. So instead of dealing with it one time, I had 
to deal with it multiple times.
    One of the other problems that I came into, and this is a 
situation within the prison system is that the actual main 
person involved in this case that was orchestrating the fraud 
was already in custody, and he was using other family members 
and giving them the information on how to proceed along the 
fraud.
    Mr. FOLEY. So he is inside working outside.
    Mr. ROSS. Right.
    Chairman SHAW. Absolutely amazing. I will share with you a 
story that we had in Washington. One of the Members of the 
Committee on Way and Means, Sam Johnson, who was a prisoner of 
war for, I think, 7 or 8 years at the Hanoi Hilton in Vietnam, 
and I had to tell him that--I said, ``Your serial number and 
rank and those things that you give as a prisoner of war, your 
serial number is your Social Security Number, and we are trying 
to get away from that.'' I said, ``All those people that were 
looking over you in prison have your Social Security Number.'' 
But I think our military is backing away from that too, and we 
have got to be terribly careful.
    And then we had a colonel who testified before us, and he 
was cashing a check at the PX, and he had to put his ID number 
on it and that was his Social Security Number, and that is 
where they picked his up. But you, you were quite correct to 
say that if you know how to find it, you can find it on a 
computer and people are--there is trafficking in these numbers. 
And that is what we have got to--that is what we have really 
got to stop.
    It is not all together when you think that the logic of 
this thing is to get rid of it, but there is a number of 
organizations that are not in favor of this type of 
legislation, who deal in identities, whether they be private 
detectives or whatever, but the type of legislation that we are 
trying to develop is one that preserves the legitimate 
government use of the Social Security Number. It was never 
meant to be a national ID number, but it has sort of risen to 
that, and it is done without adequate protection. And this is 
what you people have run into.
    And I am quite impressed with what the State of Florida has 
done in this regard. We are trying to move this legislation 
through several Committees. We moved it through the Committee 
on Ways and Means in the last Congress but it got stuck in a 
couple of other Committees with jurisdiction. We are trying to 
go back and maybe just work the bill so it is the jurisdiction 
of the Committee on Ways and Means so we can go ahead and pass 
it and then if they want to go forward with another bill, that 
they can do that or they can get moving and get the thing done 
on--get it done on their own Committee because this is terribly 
important that people like you go through this just because we, 
the people who issue the numbers, haven't put the proper 
safeguards in place in order to protect you from identity 
theft, when you have no choice but to go with a Social Security 
Number.
    Also, as you did with the driver's license, we need to also 
put some type of a code as to someone's nationality. You come 
here as a citizen of another country, even if you don't have a 
work permit, if you have a bank account or if you are a student 
here on a student visa, you have to have a Social Security 
Number before you even open a bank account. Well, we need to 
put some identifier on that so that the Social Security Number 
that is given out will indicate that this person is not a 
citizen and this person is here on a certain kind of visa. And 
you can do it simply by just adding a letter from the alphabet 
on that, and that is another matter that we are looking into. 
Anything further, Mark?
    Mr. FOLEY. I just wanted to thank Ms. Dykas for many 
things, obviously being here today and for your help on Good 
Sams St. Mary's for leading that effort and as well as Manora 
Gardens.
    What is the State doing that you find successful as a mode 
for other States, and what do you think the Federal government 
should do to help with this effort of identity theft?
    Mr. DYKAS. I think that the State being on the forefront, 
unfortunately, of having probably one of the highest rates of 
identity theft and certainly post-September 11 issues 
empanelled a grand jury, as I indicated, that that grand jury 
was in place for well over 6 months and was able to take 
testimony similar to the panel today and get very real life 
experiences as well as talk with experts in terms of crafting 
some type of resolution. And the grand jury report that came 
out on January 10, if you split it in two categories, dealt 
largely with recommendations to Florida Department of Highway 
Safety and Motor Vehicle in terms of the driver's licenses, 
certainly being a port State that we have a large influx of 
people from other countries, and dealing with those issues that 
may be more unique to a Florida, California, Texas.
    It is an issue that I think everybody recognizes is a 
problem. But if you identify what issues you can deal with, 
those issues that how do we help the victims after it has 
occurred, and I think the focus now with regard to the 
legislation is how do we prevent it from happening? And I think 
it is particularly tricky with all of the clerk's offices, for 
instance. Many of the lawyers that deal with them are all going 
to electronic filing, electronic posting, me being a State of 
Florida employee, all of my information is public record, 
including my Social Security Number. So they are working on 
getting those issues exempted out as well.
    Mr. FOLEY. Thank you.
    Chairman SHAW. You just said something that rings an alarm 
in my head that what can we do, the Federal government, after 
you have been victimized to see that you don't go through this. 
The issuing new Social Security Numbers really isn't the 
answer, because that goes back and then some will have trouble 
with all the earnings that they have had. But that is something 
that we need to take up with the Social Security 
Administration--what do you do once someone has been 
victimized? Because, Lisa, you are quite right, you are more 
vulnerable because you have been already violated, and it is 
important, I think, that we look into this and see what can be 
done. Ms. Bovbjerg just made a note, so that must mean I said 
something that she is going to look into, I hope.
    Mr. DYKAS. Well, I will give you one. Having been in the 
Economic Crime Section here, it is very tough sometimes to get 
a second Social Security Number, because frequently that is 
what credit repair scams do. They suggest that you get a new 
Social Security Number if you were actually the one who truly 
did have a bad credit as a way to avoid any type of proper 
credit reporting. So you bump up against issues all along the 
way.
    And one last comment I would suggest to this panel as well 
is we have heard individual stories but part of what was 
submitted from our office was also the cost to businesses, 
banking entities as well. Two items briefly: Visa, in 1997, had 
a total of $490 million in losses; Master Card, in 1997, had 
$407 million in losses. So it affects everyone.
    Chairman SHAW. That was from identity theft?
    Mr. DYKAS. Yes.
    Chairman SHAW. Wow.
    Mr. DYKAS. Yes.
    Chairman SHAW. They are getting half a billion dollars. 
Thank you all. Thank this panel very much, and we very much 
appreciate you taking the time to come down here and share your 
experience with us.
    Lee Cohen, the Assistant State Attorney in Charge, 
Misdemeanor Trial Unit, State Attorney's Office, 17th Judicial 
Circuit of Florida, Broward County, Florida. We have----
    Ms. GUIALDO. Anthanagtha Guialdo.
    Chairman SHAW. Thank you. Say it again for me, please.
    Ms. GUIALDO. Anthanagtha Guialdo.
    Chairman SHAW. Anthanagtha.
    Ms. GUIALDO. Guialdo.
    Chairman SHAW. Guialdo. Legal Assistant in Charge of 
Identity Theft Unit, the State Attorney's Office, also with the 
17th Judicial District of Florida from Broward County; the 
Honorable Ed Bieluch, who is Sheriff with Palm Beach County, 
West Palm Beach, Florida; and Paul Rispoli, who is the Sergeant 
of Palm Beach County Sheriff's Office in West Palm Beach; and 
Roland Maye, Special Agent-in-Charge, Atlanta Field Division, 
the Office of Inspector General, the Social Security 
Administration in Atlanta, Georgia.
    I want to thank all of you for being here. We have your 
written testimony. It has been submitted, it will be made a 
part of the record, and you may proceed as you see fit.
    Mr. Cohen.

  STATEMENT OF LEE COHEN, ASSISTANT STATE ATTORNEY IN CHARGE, 
 MISDEMEANOR DIVISION, STATE ATTORNEY'S OFFICE, 17TH JUDICIAL 
          CIRCUIT OF FLORIDA, BROWARD COUNTY, FLORIDA

    Mr. Cohen. Good afternoon, Mr. Chairman, Congressman Foley. 
On behalf of Michael J. Satz, State Attorney, Broward County, I 
would like to thank you for inviting us to be here. I am the 
Assistant State Attorney in Charge of the Misdemeanor Division, 
and I have the pleasure of also supervising Ms. Guialdo, who is 
our Identity Theft Unit Legal Aide there in that unit. I would 
like to bring a little bit different perspective to your 
proceedings, because I am sure you have been inundated with 
stories, as we have heard today, about financial losses, 
economic fraud, identity theft, credit card scams and the like. 
In our unit, we handle things--we have a little bit different 
twist on what happens with identity theft involving Social 
Security Numbers.
    Just a little background. Before I came to my current 
position, which I have had for about 5 years, I was a 
Prosecutor in our Elder Abuse and Exploitation Unit. And there 
I was charged with dealing with crimes against the elderly and 
the senior citizens of Broward County involving fraud and 
exploitation. Most of the cases I dealt with were care giver 
type of relationships, between care givers and the seniors they 
were supposed to be caring for. It was very common at that time 
for me to have cases where credit card applications were 
redirected or intercepted by the care givers. And I think that 
puts them in a key position for this type of identity theft 
above and beyond your normal relationship or normal mail 
situation.
    Most people do get their mail. The seniors that are being 
cared for by the care givers are having their mail intercepted. 
So I was having cases where the care giver would get the 
application, fill out the application, get the credit cards or 
add their names to other people's credit cards, and continue on 
this type of fraud on and on for a very long period of time 
without detection because the senior citizen was not getting 
their mail. It wasn't until years later sometimes where family 
Members got involved where this was detected. So I would like 
you to consider in your deliberations the effect that the 
elderly have because of their having to rely on others for 
their mail which is their main line of communication.
    One of the recommendations I had at various hearings and 
meetings with different participants from the security agencies 
of the financial institutions was to advocate and strengthen 
the fraud alerts on the accounts as well as putting certain 
restrictions on the accounts where you can call the bank and 
say, ``I do not want anybody adding their name to my account. I 
do not want any changes to the account without a personal 
contact to me over the telephone with certain information 
provided.'' I think that would be helpful, and I always 
advocate that the victims I dealt with were citizens that I 
spoke to to do such a thing. And I think also any--obviously, I 
know that restricting the mailing out of applications and 
offers is a controversial issue, but I think that whatever can 
be done I that would be helpful.
    The Identity Theft Unit that we have in the County Court 
Division is a very unique but, believe it or not, longstanding 
division that Mr. Satz has had since approximately 1978. There 
we have a unit that is devoted to what we used to call, or 
still called by many, the ``not me'' cases, where somebody is 
charged with a crime or a person is charged with a crime, a 
name is charged with a crime. The person comes to court and 
they say to the judge or they say to their attorney or they say 
to the prosecutor, ``That wasn't me.'' And of course the 
response is, ``Yes, sure. Tell it to the judge or tell it to 
the lawyer.''
    But these are not cases of mistaken identity like, ``I was 
at home eating mashed potatoes with my wife.'' These are cases 
where this is not the person that the police intended to arrest 
or intended to bring into the system. Somebody else has used 
their name during an encounter with law enforcement which has 
caused the innocent person to now be charged with a crime or 
dealing with the criminal justice system.
    And Ms. Guialdo is here to tell you a little bit about how 
she deals with those cases. She deals with a large number of 
those cases per year, most of the time dealing with driver's 
license and driving offenses. Thank you.

  STATEMENT OF ANTHANAGTHA GUIALDO, LEGAL ASSISTANT, IDENTITY 
  THEFT UNIT, COUNTY COURT DIVISION, STATE ATTORNEY'S OFFICE, 
   17TH JUDICIAL CIRCUIT OF FLORIDA, BROWARD COUNTY, FLORIDA

    Ms. GUIALDO. Hello, Mr. Chairman, Mr. Foley, nice to meet 
you. My name is Ann Guialdo. I am a Legal Assistant with the 
17th Judicial Circuit, the Identity Theft Unit. As Mr. Cohen 
stated again, our unit deals basically with an accused victim 
who may or may not have been arrested but an original arrest 
was made by somebody using their names or they were booked 
using that person's name but the accused was arrested.
    So my job is to go back within the file and check the 
original arrest, fingerprints if there are any, booking photos 
if there are any, and clear up the accused's name. Most of the 
time it is a notice to appear where John Brown gives Tom 
Brown's name and says Tom Brown's Social Security. He might 
know it from speaking with Tom Brown is related to Tom Brown. 
So there that Social Security problem comes in where we have to 
go in and clean up Tom Brown's Social Security and personal 
information from John Brown's name. So it becomes a big issue 
all the time, because when someone is arrested their Social 
Security automatically is put on the probably cause affidavit. 
So we always come into that Social Security problem used as an 
identifier.
    My duties include determining whether this office charges 
the right person by initiating an investigation into 
prosecuting those who unlawfully use the identities of others. 
The most prevalent cases I deal with are driving offenses 
wherein a suspect comes to the unit claiming that they hadn't 
received a citation but that somebody else did. It is our job 
to look into it, be it by signatures or identifiers from a 
driver's license that doesn't match that of the accused and 
find out really who did it.
    We also have felony cases where somebody is incarcerated 
under my name. It is my job now, because this person is already 
in the prison systems, to correct that information so by the 
time this person gets paroled that he will come out in his own 
name and not that of the accused. So we have a big process in 
investigating that with fingerprints, Florida Department of Law 
Enforcement (FDLE), the Federal Bureau of Investigation, and 
the prison system in just trying to correct identifiers.
    A lot of times we have cases where I go in for a background 
check and because somebody used my name or somehow the Social 
Security Number the imposter gave was wrong, it becomes my 
problem because it was my Social Security Number. And my name 
is now on their criminal history. So it becomes a problem 
trying to clear all of that off and putting it on the right 
person. I had placed into evidence exhibits, so those are 
basically the things--it is a process. We have walk-in 
complaints, phone calls and mail from all over the country.
    My, not really recommendation, but fingerprints and Social 
Security should kind of go hand in hand as identifiers. There 
should be a way where a fingerprint could match a Social 
Security Number or something, because, you know, criminals are 
out there, and they do it every day. I had a lady call in, I 
was trying to help her. She came in, filled out her paperwork 
and everything, and she called the imposter's job, said she was 
me, and the only way to distinguish that it wasn't me is you 
can notice my name, and she couldn't spell it.
    Chairman SHAW. I couldn't pronounce it.
    [Laughter.]
    Ms. GUIALDO. It is hard. So, you know, it becomes a problem 
for everybody. Lately, I have been having a lot of Social 
Security calls. Mothers call up and say, ``My son is going to 
go to school in September. I need to get a Social Security 
Number. Well, I went to the Social Security Administration, 
they told me he already has a Social Security Number.'' And 
they do a printout and here it is. Well, the father is using 
the Social Security--received a Social Security Number in the 
child's name. So now she has to do whatever to try to 
straighten that out.
    Chairman SHAW. Yes, but I think you have to do it in the 
hospitals now.
    Ms. GUIALDO. Right. So the father is using it, so it 
becomes a whole problem for this child. It is very difficult. I 
have had--my brother's name is similar to mine, we are a number 
off, so that becomes a problem also, because when law 
enforcement is putting it in their system, somebody is manually 
putting them in. A number is off. It automatically becomes my 
problem. So it a catch-22 issue. Thank you.
    [The prepared statement of Ms. Guialdo follows:]
Statement of Anthangtha Guialdo, Legal Assistant, Identity Theft Unit, 
 County Court Division, State Attorney's Office, 17th Judicial Circuit 
                  of Florida, Broward County, Florida
    My name is Anthangtha Guialdo and I am a Legal Assistant assigned 
to the Identity Theft Unit within the County Court Division of the 
Office of the State Attorney, 17<SUP>th</SUP> Judicial Circuit in 
Broward County. Assistant State Attorney In Charge Lee G. Cohen and I 
have been asked by State Attorney Michael J. Satz to represent this 
office at this hearing. The Identity Theft Unit, originally referred to 
as the ``Not Me'' Unit, was created by Mr. Satz in 1978 to assist those 
whose identities have been misused in criminal cases. I have been 
working in this unit for 5 years. This unit processes approximately 
2400 cases each year.
    A majority of the cases presented to me are done so by the accused 
(currently named defendant) wherein they are claiming that they have 
been mistakenly accused of a crime when in fact law enforcement or the 
Office of the State Attorney intended to charge someone else (often 
referred to as a ``Not Me'' case). This is due to the true perpetrator 
using the name or otherwise identifying him or herself as the accused. 
The perpetrators are usually family members or acquaintances of the 
accused or strangers who have gained access to personal information of 
the accused. I have even had my identity stolen by one of the accused 
that I was trying to help but as you can imagine, she had difficulty in 
determining the correct spelling of my name.
    My duties include determining whether this office charges the right 
person as well as initiating investigations into prosecuting those who 
have unlawfully used the identities of others. The most prevalent type 
of cases I deal with are driving offenses wherein a suspect comes to 
this unit claiming that they received a citation for a criminal or 
civil traffic offense in their name and that in fact, they were never 
stopped for such offense. Other misdemeanor and felony cases are also 
presented where the currently charged defendant claims ``Not Me.'' When 
a defendant begins to claim that there has been a mistaken identity as 
to who committed the crime or poses an alibi (i.e. ``It was me who they 
arrested but I didn't do it''), that defendant is immediately referred 
to his or her lawyer for further legal advice.
    When processing a case in this unit, I will interview the suspect 
and obtain as much personal documentary information I can including 
fingerprints, signatures, and copies of driver's license. I will then 
obtain records and photographs from several agencies including the 
Department of Highway Safety and Motor Vehicles and the local police 
agencies as well as have fingerprint comparisons made. Occasionally 
officers or witnesses will be asked to come to the office to see if 
identifications can be made in order to determine true identities. If I 
determine that the wrong person is accused then recommendations are 
made to the Assistant State Attorneys for the charges to be dismissed. 
If the identity of the true perpetrator is determined, orders and 
corrected charging documents will be drafted reflecting the correct 
person's identity as well as the charging of additional criminal 
charges pursuant to F.S.S. 817.568 for Criminal Use of Personal 
Identification Information, F.S.S. 843.02 Resisting/Obstructing Officer 
without Violence and F.S.S. 831.01/831.02 Forgery. (See ``Exhibit A'')
    In processing my cases, I rely heavily on the validity of Social 
Security numbers. For example, when checks are made through the 
National Criminal Information Services and the Florida Criminal 
Information Services the Social Security number is linked to the master 
(true) name as an identifier, as well as listing all alias names, dates 
of birth and Social Security numbers. (See ``Exhibit B'') Additionally, 
during the booking process, and more importantly for me (due to no 
fingerprinting of photographing of the suspect), during the issuing of 
a Notice to Appear/Citation in place of booking, the suspect is often 
inquired as to his or her Social Security number, which can later be 
used to verify or distinguish identity. (See ``Exhibit C'') The Social 
Security number is also used to verify the accuracy of the 
transposition of names from person to document and document to 
document, as well as being used to distinguish between persons with 
common names. (See ``Exhibit D'') Our Information (charging documents) 
even lists the Social Security number on the top for identification 
purposes. (See ``Exhibit E'')
    State Attorney Michael J. Satz conveys his appreciation for 
requesting input from this office in this matter. Anything that can be 
done to insure the validity of Social Security numbers will assist in 
this unit's goal to ensure that only the correct de-

fendants are charged with crimes and to assist those victims of the 
system who are mistakenly charged due to the criminal acts of others.

                                <F-dash>


    Chairman SHAW. Thank you. Sheriff?

STATEMENT OF HON. ED BIELUCH, SHERIFF, PALM BEACH COUNTY, WEST 
                      PALM BEACH, FLORIDA

    Mr. BIELUCH. Good afternoon. Let me preface this by saying 
that I am not an expert in identity theft; however, it has been 
around longer than I have been in law enforcement, as Ms. 
Guialdo stated, particularly with drivers' licenses, and we 
have had to deal with that over the years many, many, many 
times, and what we do is if we have someone that is driving 
with no identification, then we take a thumbprint on a special 
piece of paper and attach it to the citation so that they can 
be identified later in court should somebody show up and say, 
``It wasn't me.''
    It seems like that would be impractical in dealing with a 
Social Security card unless there was some type of electronic 
reader that could do the reading and compare them, which I 
suppose there is. I mean there is all kinds of identifiers out 
there--iris identifiers and that type of thing--which will 
probably help at some point when we get to that technology. I 
mean technology is kind of the catalyst here. Technology has 
allowed identity theft to really, really grow, and it is 
probably going to be the way that we have to solve it.
    Couple points I will make on what Mr. Morell said earlier, 
that the amount of money seeming to stymie the investigation, 
and I think that is very true, that $20,000 in the overall 
scheme of things isn't a lot of money but really it is. And, 
you know, we look at these at property crimes as opposed to 
person crimes where somebody is injured, but in many cases I 
believe that these are almost life threatening because some 
people just can't afford to lose $20,000. I mean to some people 
it is a drop in the bucket, but others that is their life, and 
that is their college money, that is their retirement money, it 
is whatever they have been saving up for for dozens and dozens 
of years. And it is almost a life threatening crime to them, 
and I think we need to approach it on a more serious level 
regardless of the amount.
    And one of the other problems is when we talk about trying 
to get people back on track and get back in the system, and it 
seems like a lot of red tape, and I am sure it is, but there 
are thousands, millions of people out there who are genuine bad 
guys. They are ripping off stores with credit cards and that 
type of thing, so I mean the other side of the coin is that 
that is what they are up against when they go to have their 
credit restored is the fact that there are lots of bad people 
out there and they just don't believe their story. But I am 
going to let Sergeant Rispoli talk because he is our expert on 
identity theft.

    STATEMENT OF PAUL RISPOLI, SERGEANT, PALM BEACH COUNTY 
   SHERIFF'S OFFICE, FINANCIAL CRIMES UNIT, WEST PALM BEACH, 
                            FLORIDA

    Mr. RISPOLI. Good afternoon, Mr. Chairman, Mr. Foley. On 
behalf of Sheriff Bieluch and the entire Palm Beach County 
Sheriff's Office Financial Crime Unit, I want to thank you for 
inviting us today. My name is Sergeant Paul Rispoli. I am 
currently in charge of the Palm Beach County Sheriff's Office 
Financial Crime Unit. Also here with me today is my Captain, 
Captain Simon Barnes from the Detective Bureau, along with two 
detectives from the unit: Detective Alice Gold and Pete 
Palenzuela. Any questions I can't answer they will be able to 
answer.
    Detectives in the Financial Crime----
    Chairman SHAW. But they are sitting in the back and said 
you are on your own.
    [Laughter.]
    Mr. RISPOLI. I didn't see the door shut, so I know they are 
still here. Detectives in the unit are responsible for the 
investigation of white collar crimes, specifically responsible 
for investigating exploitation of the elderly, corporate 
embezzlement, identity theft, credit card fraud, counterfeiting 
and computer Internet fraud. This six-person unit shares a 
combined 100 years experience in law enforcement. During this 
time, we have been assigned to road patrol, different units 
within the Detective Bureau, along with money laundering.
    Of all the crimes I have investigated personally, identity 
theft cases are one of the most difficult. They are difficult 
in identifying the suspects, difficult to get financial 
institutions to cooperate, difficult to prosecute and difficult 
to have the guilty parties receive sentences that would deter 
committing identity theft again. Over the past 5 years, there 
has been a significant increase in crimes where criminals 
compromise personal identification data of victims in order to 
commit identity theft. The information falling into criminal 
hands includes name, date of birth, Social Security Number, 
banking account numbers, and other financial information.
    The victims of identity theft, like other crimes, are made 
to feel personally responsible. This is especially true in 
light of the vicious cycle of events following the 
circumstances of the crime. Imagine for a moment, which Mr. 
Foley has already run into, you go to a car dealer to buy a new 
car only to be denied because of a negative payment on your 
credit report--information that you had no knowledge of. The 
trauma this type of fraud causes its innocent victims is 
inconceivable, as victims are usually left to fix the problem.
    I will explain some of the difficult areas involved with 
investigating identity theft. Identifying the suspect. 
Technology, as the Sheriff has said, has improved a thief's 
chances of getting away with crime. A thief doesn't need a gun 
or a mask to commit a crime. Today's gun is a keyboard and the 
mask is a computer with Internet access. You can apply for 
loans, credit cards, bank accounts online. You can purchase 
items with a click of a button and have them shipped all over 
the world. The thief is never seen. The credit cards and the 
merchandise is delivered to an empty apartment in the thief's 
building or neighborhood or a post office box under the 
victim's name. Most financial institutions and credit card 
companies fail to check or question why the applicant's address 
is different than the address listed in the credit report.
    Most of our complaints come from victims who are local and 
the thief is in another country, State, or county. Florida has 
a statute dealing with this crime. The statute allows for a 
venue for the prosecution and trial of violations to be 
commenced and maintained in any county in which an element of 
the offense occurred, including the county where the victim 
generally resides. The local law enforcement agency where the 
victim resides does not normally have the ability and resources 
to investigate the offense when it occurs in another county or 
State.
    Financial institutions' and credit card companies' 
cooperation--most financial institutions and credit card 
companies are reluctant to cooperate during an investigation, 
because it generate negative publicity, and the loss amount on 
one case is usually not enough to begin an investigation. It 
costs more to investigate the case than write off the loss. 
That is what I have been told.
    Prosecution and sentencing. Even when a thief is identified 
and there is probable cause for arrest, some prosecutors tend 
to plead a case out prior to trial. This plea agreement is 
usually probation and restitution. When criminals have been 
found guilty in court, they rarely see any jail time. Most are 
sentenced to probation and restitution anyway, so there is no 
deterrence to committing this crime.
    Financial and white collar crime has always been viewed as 
a lesser threat than a burglary or a robbery. Common consensus 
is no one is hurt. Ask a victim of identity theft is they feel 
any less violated than a robbery victim or a burglary victim. 
Victims have been refused employment, loans, some victims have 
actually been arrested for crimes that the identity thief has 
committed. Victim lives have been destroyed in this crime. In 
light of the events of September 11, 2001, one should be aware 
that identity theft in Florida played an important role in a 
terrorist being able to carry out their objectives. Identity 
theft does hurt people.
    Some recommendations suggested by the Palm Beach County 
Sheriff's Office Financial Crime Unit: An increase in public 
education about identity theft, which this is part of, the 
media is all gone now but at least they were here; increased 
law enforcement education and interagency cooperation. Victims 
should not be turned away; a report must be taken. The current 
identity theft statute needs to be updated with enhanced 
penalties for this crime. This will make the crime less 
attractive for a thief.
    Credit cards and financial institutions should be held 
responsible for indiscriminate issuing of credit to 
unauthorized persons, i.e, mass mailing pre-approved credit 
applications. Credit bureaus must take a more active role in 
ensuring security of one's credit. This may involve notifying a 
person that their credit has been checked. Also, I heard, I am 
not sure which panelist it was, said about the fraud alert. 
That doesn't live with you the rest of your life unless you 
keep on calling. After a certain amount of time, each credit 
bureau can shut that off.
    Require any web-based company or company taking credit 
applications over the Internet to maintain detailed records of 
their transactions. Posting of Social Security Numbers on the 
Internet should be prohibited. Entities having access to a 
consumer's personal identifying information should be strictly 
accountable as to whom they provide such information to and the 
purpose the information is being provided for.
    We believe if there were an enhancement to the penalties 
for identity theft, the criminal element would less likely 
attempt to commit this crime.
    In closing, we would like to thank you, Congressman Shaw 
and Mr. Foley, for giving law enforcement an opportunity to 
offer input into this matter. Additionally, we would ask that 
this Committee consider the massive impact identity theft has 
had on our society. Thank you.
    [The prepared statement of Mr. Rispoli follows:]
   Statement of Paul Rispoli, Sergeant, Palm Beach County Sheriff's 
        Office, Financial Crimes Unit, West Palm Beach, Florida
    Good Afternoon, Mr. Chairman and members of the Subcommittee. On 
behalf of Sheriff Ed Bieluch, we would like to thank you for the 
opportunity to appear before you today to discuss this very important 
subject.
    My name is Sgt Paul Rispoli. I am currently in charge of the Palm 
Beach County Sheriff's Office Financial Crimes Unit Seated next to me 
is the Sheriff of Palm Beach County Ed Bieluch, Captain Simon Barnes 
and Detectives Pete Palenzuela and Alice Gold.
    We are currently assigned to the Financial Crimes Unit. Detectives 
in the Financial Crimes Unit are responsible for the investigation of 
white-collar crimes, specifically responsible for investigating 
exploitation of the elderly, corporate embezzlement, identity theft, 
credit card fraud, counterfeiting and computer Internet fraud.
    This six-person unit shares a combined 100 years experience in law 
enforcement. During this time, we have been assigned to road patrol, 
different units within the detective bureau itself and money 
laundering.
    Of all the crimes I have investigated, identity theft cases are the 
most difficult.

          <bullet> LDifficult in identifying the suspect(s),
          <bullet> LDifficult to get financial institutions to 
        cooperate,
          <bullet> LDifficult to prosecute, and
          <bullet> LDifficult to have the guilty parties receive 
        sentences that would deter committing identity theft.

    Over the past five years, there has been a significant increase in 
crimes where criminals compromise personal identification data of 
victims, in order to commit identity theft. The information falling 
into criminal hands includes:

          <bullet> LName,
          <bullet> LDate of birth,
          <bullet> LSocial Security Number,
          <bullet> LBanking account number, and other personal and 
        financial information.

    Victims of identity theft, like other crimes, are made to feel 
personally responsible. This is especially true in light of the vicious 
cycle of events following the circumstances of this crime. Imagine for 
a moment, you go to a car dealer to buy a new car, only to be denied 
because of a negative payment history reflected in a credit report--
information that you knew nothing about. The trauma this type of fraud 
causes its innocent victims is inconceivable, as victims are usually 
left to fix the problem.
    I will explain some of the difficult areas involved with 
investigating Identity Theft----
Identifying the syspect:
    Technology has improved a thief's chances of getting away with 
crime. A thief doesn't need a gun or a mask to commit crimes. Today's 
gun is a keyboard and the mask is a computer with Internet access. You 
can apply for loans, credit cards, and bank accounts online. You can 
purchase items with the click of a button and have them shipped all 
over the world. The thief is never seen. The credit cards and 
merchandise is delivered to an empty apartment in the thief's building 
or neighborhood or a post office box under the victim's name.
    Most Financial institutions/Credit Card companies fail to check or 
question why the applicant's address is different than the address 
listed in the credit report.
    Most of our complaints come from victims, who are local and the 
thief is in another county, state, or country.
    Florida has a statute dealing with this crime. The statute allows 
venue for the prosecution and trial of violations to be commenced and 
maintained in any county in which an element of the offense occurred, 
including the county where the victim generally resides.
    The local law enforcement agency where the victim resides does not 
normally have the ability and resources to investigate the offense when 
it occurs in another county or state.
Financial institutions and Credit Card Companies cooperation:
    Most financial institutions/credit card companies are reluctant to 
cooperate during an investigation because it can generate negative 
publicity. The loss amount on one case is usually not enough to begin 
an investigation.
It costs more to investigate the case than to write off the loss.
Prosecution and Sentencing:
    Even when a thief is identified and there is probable cause for an 
arrest some prosecutors tend to plea a case out prior to trial. This 
plea agreement is usually probation and restitution. When criminals 
have been found guilty in court they rarely see any real jail time. 
Most are sentenced to probation and restitution anyway, so there is no 
deterrence to committing this crime.
LFinancial (white collar) Crime has always been viewed as a lesser 
        threat than a burglary or a robbery.
    Common consensus is ``No one is hurt''.
    Ask a victim of identity theft if they feel any less violated.
LVictims have refused employment, loans, and some victims have actually 
        been arrested for crimies the identity thief has committed.
    Victim's lives have been destroyed by this crime.
    In light of the events of September 11, 2001, one should be aware 
that identity theft in Florida played an important role in the 
terrorist being able to carry out their objectives.
LIdentity Theft does hurt people in many ways.
    Some Recommendations suggested by the Palm Beach County Sheriff's 
Office Financial Crimes Unit:

          <bullet> LIncrease Public education about Identity Theft.
          <bullet> LIncrease Law Enforcement education and interagency 
        cooperation. Victims should not be turned away--a report must 
        be taken.
          <bullet> LThe current Identity Theft statute needs to be 
        updated with enhanced penalties for this crime. This will make 
        the crime less attractive for a thief.
          <bullet> LCredit card companies and Financial Institutions 
        should be held responsible for indiscriminate issuing of credit 
        to unauthorized persons. (Mass mailing pre-approved credit 
        cards to the public)
          <bullet> LCredit Bureaus must take a more active role in 
        ensuring security of ones credit. This may include notifying a 
        person that their credit has been checked.
          <bullet> LRequire any web-based company or company taking 
        credit applications over the Internet to maintain detailed 
        records of their transactions.
          <bullet> LPosting of Social Security Numbers on the Internet 
        should be prohibited.
          <bullet> LEntities having access to a consumer's personal 
        identifying information should be strictly accountable as to 
        whom they provide such information to and the purpose the 
        information is being provided for.
          <bullet> LWe believe if there were an enhancement in the 
        penalties for identity theft, the criminal element would less 
        likely attempt to commit this crime.

    In closing, we would like to thank Congressman Shaw for giving Law 
Enforcement an opportunity to offer input in this matter. Additionally 
we would ask this committee to consider the massive impact identity 
theft has had on our society.

                                <F-dash>


    Chairman SHAW. Thank you. Mr. Maye?

  STATEMENT OF ROLAND MAYE, SPECIAL AGENT-IN-CHARGE, ATLANTA 
    FIELD DIVISION, OFFICE OF THE INSPECTOR GENERAL, SOCIAL 
           SECURITY ADMINISTRATION, ATLANTA, GEORGIA

    Mr. MAYE. Good afternoon, Congressman Shaw and Congressman 
Foley, and thank you for inviting the Office of the Inspector 
General, the Social Security Administration to testify today. 
My name is Roland Maye, and I am the Special Agent-in-Charge of 
the Criminal Investigative Activities for this region.
    As you noted in your opening remarks, the misuse of Social 
Security Numbers plays an increasingly large role in two issues 
currently plaguing American society. Identity theft victimizes 
thousands of Americans every year, and the number of identity 
theft crimes continues to grow. This crime begins, in many 
cases, with the misuse of a Social Security Number. And 
Homeland Security has become an even greater focus for all 
Americans. We have learned over the past 7 months that 
protecting a Social Security Number and preventing identity 
fraud is not only a criminal justice issue, but a Homeland 
Security challenge.
    On behalf of the Inspector General, who could not be here 
today, I would like to touch briefly on each of these issues, 
starting with identity theft.
    As you know, the Social Security Number was never intended 
to be a national identification number, but we can longer 
pretend otherwise. A vital part of commercial transactions of 
every kind, the SSN is as much a part of our identity as our 
own name. Indeed, the SSN is a more unique identifier--many 
people share common names, but an SSN is issued only once. For 
this reason, a valid SSN is an almost priceless tool for 
identity thieves. With an SSN in hand, unscrupulous individuals 
can apply for credit cards, open bank accounts, take out loans, 
apply for government benefits, obtain jobs, and do the many 
things all of us do every day, but these unscrupulous 
individuals do so fraudulently under an assumed identity.
    In fiscal year 2000, more than half of the 92,000 
allegations received by our fraud hotline were allegations of 
SSN misuse. The victims of identity crimes face situations 
similar to those described by the witnesses here today--
feelings of violation and helplessness, and a long, difficult 
road to financial recovery. We have made some progress. 
Certainly the public is more aware of identity theft, and of 
the importance of protecting their SSN and other personal 
information than, they have ever been. And the Social Security 
Administration, which has adopted some of the recommendations 
made in our audit report, has taken important steps in 
tightening the process by which Social Security Numbers are 
issued and used.
    On the investigative side, we see more and more indictments 
and convictions for identity theft crimes around the country. 
Right here in Florida, agents from my office, working with the 
Florida Department of Law Enforcement, brought the very first 
case indicted by Governor Bush's 16th statewide Grand Jury for 
the Purpose of Investigating Identity Theft, resulting in the 
indictment of six individuals with multiple counts of identity 
theft. Around the country, similar efforts have ensured that 
while identity theft may not be a difficult crime to commit, 
the prosecution of those who commit identity theft is now more 
of a priority for law enforcement agencies.
    As great a challenge as identity theft has become, the true 
severity of the larger SSN misuse problem became horribly 
apparent after the attack of September 11. We have come to 
learn in the 7= months since that day just how critical it is 
that we protect the integrity of the Social Security Number. We 
knew that our credit rating depended on it; we know now that 
our lives may depend on it.
    There is no greater issue in the Homeland Security arena 
than protecting the integrity of the Social Security Number. It 
is virtually impossible to operate in the United States without 
a Social Security Number. It stands to reason, then, that any 
enemy of the United States that wants to infiltrate our borders 
and live among us would need a Social Security Number in order 
to do so. The challenge before us is to find a way to allow 
legitimate commerce to continue using the SSN for legitimate 
purposes while making it less simple for both identity thieves 
and even more dangerous individuals to misuse SSNs.
    Part of that solution lies with SSA and its OIG. Many of 
the recommendations we have made to improve the enumeration 
process are already in place or in the process of being 
implemented. For example, SSA's practice of issuing ``non-
work'' SSNs to visitors to our country so that they may obtain 
drivers licenses has been discontinued. Development of a 
meaningful process for SSA to verify immigration documents with 
the Immigration and Naturalization before issuing an SSN has 
been expedited. And SSA appreciates the need to do all it can 
under current law and within the position of budgetary 
constraints to protect the SSN upon its issuance during the 
life of the number-holder, and upon the number-holder's death.
    In OIG, we have worked around the clock since September 11, 
both in support of the investigation into the events of that 
day, and in furtherance of Federal efforts to prevent future 
acts. An example is our participation in Operation Tarmac in 12 
major airports around the country. The most recent of these was 
in the Washington, DC, area, where last week, together with 
other Federal authorities, we arrested some 105 individuals 
suspected of providing false information--including SSNs--to 
obtain work in secure areas of Reagan National Airport, Dulles 
International Airport, and Baltimore-Washington International 
Airport. Again, working within the limitation of existing 
laws--laws which were written for a time before identity theft 
and Homeland Security became the overarching issues they are 
today--we have taken significant steps.
    But we need the help of this Subcommittee and the Congress 
as a whole. Legislations must be enacted to close the gaps in 
the laws that govern the use of SSNs. Legislation like H.R. 
2036, the Social Security Number Privacy and Identity Theft 
Protection Act of 2001, introduced by this Subcommittee, places 
meaningful restrictions on the use, display and sale of SSNs 
and provides new and important enforcement mechanisms for 
offenders. Such legislation represents an important step to 
reducing identity theft and making the SSN unavailable as a 
tool to those who commit or support acts of terror against the 
United States.
    The Inspector General looks forward to working with this 
Subcommittee to ensure that we are doing all we can to stem the 
tide of SSN misuse. Thank you.
    [The prepared statement of Ms. Maye follows:]
   Statement of Roland Maye, Special Agent-in-Charge, Atlanta Field 
      Division, Office of the Inspector General, Social Security 
                    Administration, Atlanta, Georgia
    Good morning, Chairman Shaw, and thank you for inviting the Office 
of the Inspector General (OIG), Social Security Administration (SSA), 
to testify today. My name is Roland Maye and I am the Special Agent-in-
Charge of the criminal investigative activities in this region.
    As you noted in your opening remarks, the misuse of Social Security 
numbers (SSNs) plays an increasingly large role in two issues currently 
plaguing American society. Identity theft victimizes thousands of 
Americans every year, and the number of Identity Theft crimes continues 
to grow. This crime begins, in many cases, with the misuse of an SSN. 
And Homeland Security has become an even greater focus for all 
Americans. We have learned over the past 7 months that protecting the 
SSN and preventing Identity fraud is not only a criminal justice issue, 
but a Homeland Security challenge. On behalf of the Inspector General, 
who could not be here today, I would like to touch briefly on each of 
these issues, starting with Identity Theft.
    As you know, the SSN was never intended to be a national 
identification number, but we can no longer pretend otherwise. A vital 
part of commercial transactions of every kind, the SSN is as much a 
part of our identity as our own name. Indeed, the SSN is a more unique 
identifier--many people share common names, but an SSN is issued only 
once. For this reason, a valid SSN is an almost priceless tool for 
identity thieves. With an SSN in hand, unscrupulous individuals can 
apply for credit cards, open bank accounts, take out loans, apply for 
government benefits, obtain jobs, and do the many things all of us do 
every day.
    In Fiscal Year 2000, more than half of the 92,000 allegations 
received by our fraud hotline were allegations of SSN misuse. The 
victims of Identity crimes face situations similar to those described 
by the witnesses here today--feelings of violation and helplessness, 
and a long, difficult road to financial recovery. We have made some 
progress. Certainly the public is more aware of Identity Theft, and of 
the importance of protecting their SSN and other personal information, 
than they have ever been. And SSA, which has adopted some of the 
recommendations made in our audit reports, has taken important steps in 
tightening the process by which SSNs are issued and used.
    On the investigative side, we see more and more indictments and 
convictions for Identity Theft crimes around the country. Right here in 
Florida, agents from my office, working with the Florida Department of 
Law Enforcement, brought the very first case indicted by Governor 
Bush's 16th Statewide Grand Jury for the Purpose of Investigating 
Identity Theft, resulting in the indictment of six individuals with 
multiple counts of Identity Theft. Around the country, similar efforts 
have ensured that while Identity Theft may not be a difficult crime to 
commit, the prosecution of those who commit Identity Theft is now more 
of a priority for law enforcement agencies.
    As great a challenge as Identity Theft has become, the true 
severity of the larger SSN misuse problem became horribly apparent 
after the attacks of September 11th. We have come to learn in the 7 
months since that day just how critical it is that we protect the 
integrity of the SSN. We knew that our credit ratings depended on it; 
we know now that our lives may depend on it.
    There is no greater issue in the Homeland Security arena than 
protecting the integrity of the SSN. It is virtually impossible to 
operate in the United States without an SSN. It stands to reason, then, 
that any enemy of the United States that wants to infiltrate our 
borders and live among us would need an SSN in order to do so. The 
challenge before us is to find a way to allow legitimate commerce to 
continue using the SSN for legitimate purposes, while making it less 
simple for both Identity Thieves and even more dangerous individuals to 
misuse SSNs.
    Part of that solution lies with SSA and its OIG. Many of the 
recommendations we have made to improve the enumeration process are 
already in place or in the process of being implemented. For example, 
SSA's practice of issuing ``non-work'' SSNs to visitors to our country 
so that they can obtain drivers licenses has been discontinued. 
Development of a meaningful process for SSA to verify immigration 
documents with the Immigration and Naturalization Service before 
issuing an SSN has been expedited. And SSA appreciates the need to do 
all it can under current law and within existing budgetary constraints 
to protect the SSN upon its issuance, during the life of the number-
holder, and upon the number-holder's death.
    In OIG, we have worked around the clock since September 11th, both 
in support of the investigation into the events of that day, and in 
furtherance of Federal efforts to prevent future acts. An example is 
our participation in Operation Tarmac in 12 major airports around the 
country. The most recent of these was in the Washington, DC area, where 
last week, together with other Federal authorities, we arrested some 
105 individuals suspected of providing false information--including 
SSNs--to obtain work in secure areas of Reagan National Airport, Dulles 
International Airport, and Baltimore-Washington International Airport. 
Again, working within the limitations of existing laws--laws which were 
written for a time before Identity Theft and Homeland Security became 
the overarching issues they are today--we have taken significant steps.
    But we need the help of this Subcommittee and the Congress as a 
whole. Legislation must be enacted to close the gaps in the laws that 
govern the use of SSNs. Legislation like H.R. 2036, The Social Security 
Number Privacy and Identity Theft Protection Act of 2001, introduced by 
this Subcommittee, places meaningful restrictions on the use, display, 
and sale of SSNs and provides new and important enforcement mechanisms 
for offenders. Such legislation represents an important step toward 
reducing Identity Theft and making the SSN unavailable as a tool to 
those who commit or support acts of terror against the United States.
    The Inspector General looks forward to working with this 
Subcommittee to ensure that we are doing all we can to stem the tide of 
SSN misuse.
    Thank you and I'd be happy to answer any questions.

                                <F-dash>


    Chairman SHAW. Thank you. I would like to address this to 
anyone on the panel who has information, the question of repeat 
offenders.
    Ms. GUIALDO. They are very common. It is every week the 
same person. It is a constant issue. Right now I have cases 
where a perpetrator used one person's name. We cleared that 
person's name. Well, he is also on two other person's cases.
    Chairman SHAW. Has he been apprehended?
    Ms. GUIALDO. We refiled charges against him, but the police 
department does not actively go out and pick you up. If he gets 
stopped using his own name, he will be apprehended for the new 
crimes. But if he is not, it doesn't happen.
    Chairman SHAW. Is that the case up here, Sheriff? Are you 
talking about misdemeanors?
    Ms. GUIALDO. Yes.
    Mr. Cohen. Usually, they are misdemeanors. Usually just the 
plain using somebody else's name, unless it results in 
specified harm, it is a misdemeanor. If there is a certain 
harm----
    Chairman SHAW. Well, if it is grand theft to--identity 
theft, yes, the felony, I mean the felony they will go get 
them, won't they?
    Mr. Cohen. That is probably a statewide problem is 
basically the arrest on these warrants. I mean the police 
departments prioritize, you know, different degrees. They put 
different efforts into the fugitive squads of the different 
police departments. That is a constant resource issue, the 
apprehension of outstanding felons or outstanding fugitives.
    Chairman SHAW. Sheriff?
    Mr. BIELUCH. We probably have right now some 50 to 60,000 
warrants just in our Palm Beach County database, and we don't 
actively go out after misdemeanants; however, perhaps we should 
in this case. I have made a note of it, and this obviously has 
the potential to become a serious felony. As we said, stated 
over and over again, because nobody gets hurt, because it is 
not a crime against person, these things tend not to be 
investigated as thoroughly. And when the warrants come out, 
sometimes they probably don't go pick them up as quickly as 
they could. But I am going to take note of that, and we 
definitely will be going after the misdemeanor identity theft 
cases.
    Chairman SHAW. We heard two felony cases today----
    Mr. BIELUCH. Right.
    Chairman SHAW. From our witnesses. Also, you are quite 
right as to what a growing problem it is. This is the fastest 
growing crime in the United States today. Still what we are 
looking at today is probably a drop in the bucket compared to 
what it is going to be, and unless we start getting some 
vigorous law enforcement and some arrest, it will go even 
faster.
    Mr. BIELUCH. Yes, I agree. But, you know, all criminals 
have MOs, and this is just the MO of the people that do 
identity theft. And burglars get out of jail, and they don't 
suddenly become car thieves. They go back to being burglars 
because that is kind of their trade, and the punishment is nil.
    Mr. Cohen. But it is not just a crime. It really--it is not 
just the crime, it is the means to a crime. It really is. And a 
lot of people say identity theft is a crime. I think that it 
really is--it is just part of your grand theft, it is part of 
your credit card fraud, it is part of your forgeries. And that 
is all it is, is a tool. Instead of pushing them down and 
grabbing their purse and then using their credit card, they are 
just applying in the mail for one.
    Mr. FOLEY. Identity theft is the getaway car, just one 
issue. Sergeant Rispoli, I appreciate, and all of your 
testimony I appreciate specifically, but you did a nice job of 
outlining what are good areas for us to look into: education, 
enhanced penalty, the companies themselves--not a day goes by 
that I don't end up with something in my mailbox for a free 
teaser ad, get 1.5-percent interest rate for the next 30 hours, 
and then it goes to 19 percent.
    Mr. RISPOLI. If you get to the mailbox first.
    Mr. FOLEY. Right, exactly. And that is the problem. People 
are going into your mailbox and gaining some of this 
information. The web postings, these are all interesting 
suggestions.
    Mr. Maye, as well, with the Social Security Administration, 
thank you for illuminating some of the problems we are facing 
relative to immigration. It is a whole other--I talked to a 
person the other day, because I asked--I know their status is 
illegal, I asked, ``How you are able to work here?'' They said, 
``Oh, five or six of us use the same person's Social Security 
Number.'' I said, ``Five or six? Doesn't Social Security ever 
check how he has five or six jobs?'' He said, ``Oh, no. It has 
never happened to him yet.'' But I mean these things are going 
on, and so people are either using numbers collectively or 
gaining them illegally, and so it is a frightening aspect, 
because we all, again, feel very, very vulnerable.
    Mr. MAYE. In some cases this is true, especially in the 
agricultural areas, the person employing the workers are the 
ones who don't do the necessary checks to ensure that each 
worker has a valid number. They are more concerned with 
gathering their crops, so they might look the other way. We 
have had several cases on some major producers that hired 
individuals without valid SSNs because they didn't do the 
proper checks to ensure that each individual they hired had a 
valid SSN.
    Mr. FOLEY. No, but it is interesting, and I fault 
government a lot, and whether we fail to live up to technology 
we have to look at the problem. I mean I can use an ATM card in 
Europe. I can put it in a machine, it reads my bank account in 
the United States, determines if I have a balance and in about 
15 seconds it sends me back cash in the denomination of the 
country I am in. Now Social Security, you would think, if 
somebody was an employer, they could call up and verify within 
15 seconds whether the person presenting themselves had a valid 
Social Security Number and maybe some outliers, like they ask 
my grandmother's maiden name. If there was an ability to do 
that, then I would shoulder the responsibility mostly on the 
employer community. But I don't know who they call today, and I 
don't know how long it would take.
    Mr. MAYE. Social Security has such a system in place.
    Mr. FOLEY. Is it?
    Mr. MAYE. An employer can call and verify an SSN with SSA.
    Mr. FOLEY. Quickly?
    Mr. MAYE. Yes, expeditiously.
    Mr. FOLEY. Well, then, God bless, we have gotten something 
going on, because that is a big concern.
    Mr. MAYE. It is just a matter of getting employees oriented 
to contacting Social Security and verifying the employee's SSN.
    Mr. FOLEY. Well, then we will work on that aspect of it. 
Because it was one of the concerns that I had that we didn't 
have enough means in which to determine. And then fraudulent 
documents are a problem as well for employers. There is a lot 
of things that go on. Thank you.
    Chairman SHAW. I would like to thank you all. I think we 
always learn something from a field hearing, and this has been 
very helpful to us to see the frustrations of prosecution and 
law enforcement and trying to get these things done.
    The bill that we have filed that we are working on would 
have penalties up to 5 years in jail for people that were 
trapped in these numbers. So the identity theft would become--
would also become a felony, not just a misdemeanor under what 
we are proposing. So we still have some work to do, but we will 
look into it, and I think we will be able to use your 
experience in developing this legislation as we see it through. 
I am hopeful that we can get the bill passed in short order to 
get this thing moving. What happens over in the Senate, which 
is the graveyard of legislation, I have no idea, but we will do 
our part.
    Thank you all for being here. Say hello to Mike for me. We 
go back 30-some years. Thank you.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]
                                          Plantation, Florida 33322
                                                       May 10, 2002
The Honorable E. Clay Shaw, Jr.
Chair, Subcommittee on Social Security
Committee on Ways and Means
U.S. House of Representatives

    Dear Representative Shaw, Chair, and Committee Members:
    This letter is in reference to protecting the privacy of social 
security numbers and preventing identity theft. In coming across 
information regarding the already held Subcommittee Hearing in Lake 
Worth through the Congressional website, there was also details for 
submission of written comments by May 13, 2002. I am a concerned 
private citizen wishing to submit comments on this subject.
    Increasingly, more articles are released by the media highlighting 
the pervasive misuse of social security numbers (SSNs) by criminals and 
terrorists. It is now known that a majority of the September 
11<SUP>th</SUP> terrorists fraudulently obtained false SSNs to carry 
out their activities and this has exemplified the severe consequences 
of the failure to protect the integrity of SSNs. I commend Congress for 
taking steps to protect the privacy of every Americans' SSN and, as you 
have indicated, it is an appropriate action in the Nation's response to 
terrorism.
    There appear to be many issues related to the fraudulent use of 
SSNs, ranging from law enforcement issues to the ease of accessibility 
to target victims with identity theft, on account of the widespread use 
of SSNs as an identification method by businesses, government, medical, 
and educational institutions. There is a strong need for preventative 
measures and legal protections to be put in place for U.S. citizens. 
Public and private entities routinely request the surrender of an 
individual's SSN as a course of business. As a result, it gets harder 
for an individual to control access to their own SSN leaving them 
exposed as victims to potential criminal activity. A serious concern of 
mine relates to the routine request for SSN by medical practices and 
health insurances. Not only do many health insurances have practices 
such as issuing cards announcing an individual's SSN to all parties but 
also many hospitals, doctors, and others in the medical industry make 
releasing a SSN a condition to receiving medical attention. Denial of 
business services due to refusing to submit SSN may currently be an 
option for those providing consumer goods and services but should not 
be permitted for medical and insurance providers for its potential 
serious repercussions and unfair access to medical care. All these 
industries may have a legitimate need for individual identifiers, 
including obtaining payment for services, products and insurance, but 
not by contributing to the exposure of SSNs to potential fraud and the 
peril of its customers. It is my hope that such concerns be addressed 
to reduce the common use of SSNs.
    I would like to be kept informed on the progress of the legislation 
being considered. Thank you for your attention to the matter.
            Sincerely,
                                                       Maisy Alpert

                                <F-dash>


              Statement of David Palay, Las Vegas, Nevada
    I urge all members of the Committee to DISREGARD the complaints of 
industry about limitations on the use of Social Security Numbers and 
take steps to prohibit all use except for income tax purposes as 
originally intended and as promised by former President Roosevelt 
originally. Consider an unseen computer, selling personal information 
to anyone with the price of access. That is what the system has become. 
Is not one's name and identification personal property? Please make it 
so.
    (Don't worry about placing the nuke repository at Yucca Mountain. 
Its the right place for these materials)

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
